<html>
<title> - RECREATION FEES</title>
<body><pre>[Senate Hearing 107-825]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-825
 
                            RECREATION FEES
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on

                                S. 2473

TO ENHANCE THE RECREATIONAL FEE DEMONSTRATION PROGRAM FOR THE NATIONAL 
                  PARK SERVICE, AND FOR OTHER PURPOSES

                                S. 2607

    TO AUTHORIZE THE SECRETARY OF THE INTERIOR AND THE SECRETARY OF 
               AGRICULTURE TO COLLECT RECREATION FEES ON 
                 FEDERAL LANDS, AND FOR OTHER PURPOSES

                               __________

                             JUNE 19, 2002


                       Printed for the use of the
               Committee on Energy and Natural Resources








                           U.S. GOVERNMENT PRINTING OFFICE
84-415                            WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                      David Brooks, Senior Counsel
                     Nancie Ames, Bevinetto Fellow







                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     5
Baucus, Hon. Max, U.S. Senator from Montana......................     3
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     4
Rey, Mark, Under Secretary for Natural Resources and Environment, 
  Department of Agriculture......................................    14
Scarlett, P. Lynn, Assistant Secretary for Policy, Management, 
  and Budget, Department of the Interior.........................     6
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     5

                               APPENDIXES

Additional material submitted for the record.....................    29


                            RECREATION FEES

                              ----------                              


                        WEDNESDAY, JUNE 19, 2002

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

           OPENING STATEMENT OF HON. JEFF BINGAMAN, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The hearing will come to order.
    The purpose of the hearing is to consider the issue of 
recreation fees on Federal lands, specifically to review two 
fee bills that are pending in the committee. The bills are S. 
2473, which is Senator Thomas' bill to authorize admission and 
recreation use fees at units of the National Park System, and 
S. 2607, which is my legislation, to authorize recreation fees 
for the Park Service, Fish and Wildlife Service, Bureau of Land 
Management, and the Forest Service.
    In 1996, an amendment was included in the Interior and 
Related Agencies Appropriations Act establishing the Recreation 
Fee Demonstration Program. This program authorized the three 
Department of the Interior land management agencies and the 
Forest Service to establish a fee program ``to demonstrate the 
feasibility of user-generated cost recovery for the operation 
and maintenance of recreation areas or sites and habitat 
enhancement projects on Federal lands.''
    Unlike the existing fee authority in the Land and Water 
Conservation Fund Act, which was developed by this committee 
and its predecessor, the Interior and Insular Affairs 
Committee, the Fee Demonstration Program did not place any 
restrictions on the Federal agencies either in the amount or 
the type of fees that were charged. Instead, the program 
authorizes the agencies to collect fees, notwithstanding any 
other provision of law.
    Since its creation in 1996, the Fee Demonstration Program 
has twice been extended. It now runs through the end of fiscal 
year 2004. There have been several proposals to make the Fee 
Demonstration Program permanent. I believe that if we do not 
address this issue in the authorizing committee this year, 
there is a good chance the Fee Demonstration Program will be 
made permanent in the next appropriations cycle or, at the very 
least, be extended once more.
    While I think it is important for us to move a fee bill 
this year, I understand that recreation fees can be 
controversial, especially in certain areas of the country, and 
I want to take a minute to explain the criteria I think we 
should use for a recreation fee bill.
    First, any bill must ensure that recreation fees are fair 
and affordable and that visitors are not prevented from using 
public lands because of fees.
    Second, a bill should allow the land management agencies to 
use fee revenues without further appropriation and ensure that 
most fees are spent in the area where they are collected.
    Third, recreation fees should supplement and not offset 
existing appropriations.
    Fourth, all Federal agencies should establish a consistent 
fee policy and we should have a single legislative authority 
for fees.
    Fifth, Congress should set limits on the agencies' 
authority to charge fees in specific circumstances, and toward 
that end, we should include statutory prohibitions on specific 
activities for which fees should not be charged.
    And finally, consistent with these goals, we should allow 
Federal land managers flexibility to manage their fee programs.
    I do not believe that simply making the Fee Demonstration 
Program permanent will achieve these goals. I know there is 
some confusion about my bill being an extension of that 
program. I want to clarify what the bill tries to achieve.
    I do believe there is general support for ensuring that 
fees collected are spent primarily at the collection site, 
whether for resource protection or addressing maintenance 
backlogs or other critical funding needs. The legislation I 
have introduced continues to align the agencies to keep fee 
revenues instead of returning them to the general treasury.
    At the same time, I do not agree with the broad authority 
in the Fee Demonstration Program that allows Federal agencies 
to charge a fee for anything without any limitations. To 
address that concern, S. 2607 includes many provisions that 
were originally included in the Land and Water Conservation 
Fund fee authorities and some other limitations as well, 
including restrictions on the types of areas for which an 
entrance fee may be charged and restrictions on the types of 
activities for which a daily use fee may be charged.
    For example, the bill prohibits levying a use fee for 
access to a visitor center, for access to a dispersed area with 
little Federal investment and for stopping at a scenic overlook 
among other restrictions. I believe the Forest Service's 
efforts to charge fees in some cases for these types of 
activities have met with considerable opposition from many 
visitors, and that is justifiable opposition.
    A major concern I have with the recreation fee issue as a 
whole is that I do not want these fees to be a deterrent to 
public use of our public lands, especially for those with lower 
incomes. I have tried to ensure in this bill that all fees be 
fair and equitable. If we need to clarify that fees must also 
be affordable, then I would be anxious to do that.
    We have representatives from both the Department of the 
Interior and the Agriculture Department here this morning. I 
hope we will be able to explore the fee issue in detail with 
these witnesses. I think it is important that as the 
authorizing committee, we finally begin the discussion on this 
issue.
    With S. 2607, I have tried to address what I believe are 
some of the major concerns with the existing fee policies. I 
look forward to working with other members of the committee and 
particularly Senator Thomas and the bill he has in the 
committee to produce a good resolution on this issue.
    We received several hundred statements for the record, all 
of which have expressed opposition to the Fee Demonstration 
Program, and we will include all those statements in the 
record.
    Senator Campbell, did you have any opening statement?
    [A prepared statement from Senator Baucus follows:]
    Prepared Statement of Hon. Max Baucus, U.S. Senator From Montana
    Thank you, Mr. Chairman, for allowing me to testify here today 
regarding the Recreation Fee Demonstration Program.
    As you know, the Recreational Fee Demonstration Program was 
originally designed as a short-term trial program. This program allows 
the four major federal land management agencies, the Bureau of Land 
Management, the United States Forest Service, the National Park 
Service, and the United States Fish and Wildlife Service, to test the 
feasibility of using new fees to recover some of the costs associated 
with operating and maintaining federal recreation sites.
    Montana has millions of acres of federal land. We have a long 
hunting, fishing and recreation tradition that is a way of life for 
folks from every walk of life in Montana, from farmer to logger, to 
businessman to conservationist. Charging the average Montanan to use 
the National Forest in his or her own backyard, land that they've used 
freely for generations just doesn't seem fair. Public lands have to 
remain open and accessible to all Montanans, for this generation and 
the next.
    Although I understand that, particularly in the case of National 
Parks, fees may be necessary in areas of heavy recreational use, I urge 
you to be extremely cautious in authorizing agencies to rely on fees to 
pad their budgets, or promote unnecessary projects in areas that don't 
see much recreational use.
    Recreation fees could have a disproportionate impact on Montana's 
working class men and women, particularly when compared to out-of-state 
tourists with higher incomes. A lot of hard-working Montanans already 
pay taxes to manage our public lands. We should not price these people 
off of their public lands, nor should we require them to subsidize a 
federal agency's desire to cater to out-of-state ``customers,'' in the 
guise of addressing ``critical'' maintenance backlogs.
    I firmly believe that recreation fees should never replace the 
Federal Government's responsibility to take care of the lands that it 
holds in trust for the public. I don't believe we should encourage 
agencies to set high fees so that they can build unnecessary 
developments. Similarly, I just can't support lifting the 100-project 
limit that currently restrains the Forest Service and other federal 
land management agencies from relying too heavily on recreation fees to 
supplement their budgets.
    I believe that it is not in our interest to make the Recreation Fee 
Program permanent right now. Because the Program was designed in 1996, 
neither Congress, nor the affected agencies have had a good opportunity 
to analyze the effectiveness of the Recreation Fee Program. Before we 
make this program permanent, we need to have a better understanding of 
how monies collected from the program are being spent and where they 
are being spent.
    For example, I think we'd all agree that the federal land 
management agencies have vastly different needs when it comes to 
recreation. In Montana, we have a lot of land maintained by the Forest 
Service. I can guarantee you that the Flathead National Forest or the 
Kootenai National Forest don't see anything even close to the several 
million visitors that come to Yellowstone and Glacier National Parks 
each year, demanding good roads, lodging, food, campsites, interpretive 
centers, maintained walkways, and other visitor services.
    I can understand why the Park Service might need to levy fees in 
order to maintain many of their customers' recreational needs. However, 
the Forest Service simply isn't the same kind of animal when it comes 
to recreation. If it were, all of our forests would be National Parks. 
I believe it would be a real injustice for Montana residents to treat 
the two agencies as if they had equal recreational needs in any 
permanent Recreational Fee Program.
    Mr. Chairman, I appreciate S. 2607's attempt find a 
compromisebetween the interests involved in this debate. However, I 
stronglybelieve that we need to take a good look at the current demo 
program and see how effective it is before we make it permanent. With 
this in mind, I strongly urge this committee to postpone consideration 
of S. 2607 until we can be absolutely sure that we have a program that 
meets the legitimate needs of the agencies involved while still 
allowing Montanans and all Americans to freely enjoy their public 
lands.
    Thank you again for the opportunity to testify before you today.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Mr. Chairman, I have a conflict, so I 
have to leave pretty soon.
    But let me just say that this is a very difficult issue out 
West. Coming from our neighboring State, New Mexico, I am sure 
you have heard from many of your constituents, as I have and as 
Senator Thomas has, those who believe any kind of a fee is a 
form of double taxation, and others who demand better and 
better facilities.
    My own view has been that if you are taking something from 
the land, or there is something you are using there, mining or 
timber or so on, I understand that you have to have fees. In a 
national park, obviously if you wanted upgraded facilities, 
bathrooms, campgrounds, and so on, I think they very clearly 
need the revenue to do it.
    I am concerned somewhat, though, on a fee proposal that 
would be enacted for those who just want to go out and look at 
the forest. You mentioned the caveats in your bill, for 
instance, an overlook where people could drive through and they 
would not be charged. I think that is good.
    I have a big book at home that lists all of the campgrounds 
in the United States, public and private campgrounds, where you 
can go with your RV and camp. If you look at the difference 
between the private ones that provide different services and 
barbecue pits and all kinds of things and look at the ones that 
are in the national forest, I mean it is different as night and 
day. The ones in the forests, there just is not anything there. 
There is a place to pull off literally. Most of them, at best, 
might have a port-a-potty or two, but other than that, there is 
almost nothing in any of those campgrounds. So, if you are not 
doing anything more than just pulling off the road and parking 
for a while, I do not know what the fee would be for unless it 
is to try to improve things, if that is what people are 
demanding. On the other hand, if they do, then I wonder if they 
are not getting in competition with the private campgrounds. 
So, it is a very difficult problem.
    Certainly in all three of our States, the tourism is at 
least one of the backbones of our State economics. When you 
tell people that you are going to start charging to go into the 
forest or onto the public land, other than the parks, I think 
there might be some concerns from the standpoint of what it is 
going to do to our tourism industries.
    I would just mention that I have some further statements 
and a couple of questions.
    The Chairman. Thank you very much.
    Senator Thomas.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman. Thank you for 
having this hearing. I think it is very important and timely 
that we do something to, in my view, make permanent this Fee 
Demonstration Program.
    Obviously, there have been mixed reviews in the 5 or 6 
years that it has been out there. I think it has been a 
demonstration, and from that demonstration, we ought to have 
learned how we can best do this. I think the Forest Service 
ought to be congratulated, for they probably did more on 
demonstrations and trying different things than any other 
agency, frankly. Now, some of those were not very well 
received, as a matter of fact, so there is some criticism. But 
nevertheless, that is what this was, a demonstration.
    So, as you pointed out, Mr. Chairman, I have a bill. Mine 
limits it to the National Park Service. I am not totally 
dedicated to that idea, but as Senator Campbell was talking 
about, I think we have to be very selective about the kinds of 
places in which charges are made. There have to be some 
services there that are unusual. It sort of bothers me to be 
talking about fees on public lands. Public lands in Wyoming 
means the BLM, it means miles and miles of stuff with nothing 
on it. Now, I know that technically is not probably right, but 
that is the view we have. Parks are not seen as public lands in 
the same category as the open space or much of the Forest 
Service.
    I believe that we can work out something here. I think 
there ought to be some criteria, as you have suggested, as to 
where this takes place. I think it is too bad when we have a 
facility and you have a sequence of five or six different fees 
for different things in the same place. I think that is not 
good. You certainly ought not to have to have a permit or 
charge a fee to go on Forest Service or BLM land just to be 
there.
    So, I have some questions about where we are on it. I think 
there ought to be more accountability of the funds. I am not 
quite sure the 80 percent has ever gotten to where it is 
supposed to be. We talk of having 32 percent costs to be able 
to collect this money. That is way too high. But I look forward 
to it, Mr. Chairman, and I am sure we can work out something 
that will be good for the lands and good for the visitors. 
Thank you.
    The Chairman. Thank you very much.
    Senator Akaka, did you have an opening statement?

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Yes, thank you very much, Mr. Chairman, and 
thank you very much for holding this hearing on the 
recreational fee program.
    I would like to add my welcome to our two witnesses, 
welcome to the committee. I have met both of you before and 
worked with Mr. Rey during his years on the committee. So, 
welcome back.
    The recreational fee demo programs under consideration 
today are temporary programs managed by the Federal land 
management agencies. In examining whether to permanently 
authorize fee authority, we must assess the benefits and 
weaknesses of the recreational fees and their uses. Fees are 
charged for commercial uses of the public lands such as grazing 
and logging. I believe it is appropriate to authorize fees for 
recreational uses of public lands as part of our responsibility 
to be stewards of our natural resources, particularly with the 
increasing demand for access to public areas.
    In my State, Mr. Chairman, the fee demo program has been a 
successful venture for our national parks. We have two national 
parks in our State that have raised net revenues of over $1 
million in fiscal year 2000. We are in the top 10 of fee demo 
parks with Hawaii Volcanoes National Park raising $3.2 million 
and Haleakala raising $2.1 million in net revenue. These 
amounts are equivalent to 70 percent and 66 percent of the unit 
budgets by those parks. The fees are relatively simple--
entrance fees for buses and individuals--and they fluctuate 
over time. The fees are very important for our parks to defray 
costs of maintenance for trails, interpretation, and facilities 
in these two parks. Under current law, we share 20 percent of 
the revenue with other parks across the Nation.
    One of my concerns, Mr. Chairman, is the restricted use of 
fee demonstration revenues. In Hawaii, we have an invasive 
species/endangered species challenge. One of our parks' most 
consistent problems is the threat of invasive species. Miconia 
is a fast-growing, aggressive tree that forms dense stands and 
pushes aside native growth. Miconia, which has devastated 
Tahiti, is our number one resource problem in Hawaii's parks. 
This threat is eminent at Haleakala and is most efficiently 
dealt with before it enters park boundaries. As we examine both 
bills today, I hope consideration can be given to the use of 
fee demonstration funds to help parks protect native vegetation 
and animals against invaders like Miconia, even if it is 
technically outside the boundary of the park.
    There are many other important issues regarding 
recreational fee authority for land management agencies. We 
must consider the issues of equity among fees, coordination of 
fees across agencies, and the public's perception of multiple 
fees which confront them.
    Mr. Chairman, I look forward to the testimony from our 
witnesses. Thank you very much.
    The Chairman. Well, thank you very much.
    Why do we not go ahead with both of our witnesses here. Our 
first witness will be the Honorable Lynn Scarlett who is the 
Assistant Secretary for Policy, Management, and Budget with the 
Department of the Interior, and then the Honorable Mark Rey who 
is the Under Secretary for Natural Resources and Environment in 
the Department of Agriculture. Please go right ahead.

STATEMENT OF P. LYNN SCARLETT, ASSISTANT SECRETARY FOR POLICY, 
       MANAGEMENT, AND BUDGET, DEPARTMENT OF THE INTERIOR

    Ms. Scarlett. Thank you, Mr. Chairman and members of the 
committee and thanks for this opportunity to present the 
Department of the Interior's views on S. 2473, as well as S. 
2607, both of which address, as we have been discussing, 
recreation fees. The Department of the Interior thinks this is 
an extraordinarily important and timely topic, and we 
appreciate this opportunity.
    The Department of the Interior strongly supports the 
efforts through both of these bills to establish rec fee 
authority. In particular, we support the efforts of both of 
them to allow for reinvestment of the majority of fees into 
facilities and services at the sites where the fees are 
charged.
    A little bit of background. As we all know, of course, 
Federal lands are very important to Americans and other 
visitors for recreation values, for values of reflection and 
solace, for education purposes. We want to ensure that our 
Federal lands managed under the Department of the Interior 
continue to play this important role and we view recreation 
fees as a very important part of pursuing that mission.
    We would like to share some our experiences and lessons 
learned through the Fee Demonstration Program and our 
experience in general with fees at our public lands. This is 
experience drawn from across all of our agencies and, indeed, 
also from an interagency effort with the Department of 
Agriculture and the Forest Service. We recently created an 
Interagency Recreation Fee Leadership Council. I chair the 
council with Mark Rey. It has been a valuable opportunity 
across agencies to garner information and share those 
experiences and try to develop coordinated and better 
management of the fee programs.
    Let me share some of the achievements first and then move 
to lessons learned and some of the challenges that we view as 
necessary to be addressed in any forthcoming legislation.
    First on the achievement, we view these demonstration fees 
and recreation fees as having allowed us to actually improve 
and provide additional benefits to recreationists for local and 
other visitors to parks and local communities. Let me give you 
a couple of examples.
    At the South Fork of the Snake River, we had a pilot fee 
project there. It was a partnership with the Bureau of Land 
Management, the Forest Service, the Idaho Department of Fish 
and Game, and three counties, all working jointly together. The 
money there has been used for making facilities more accessible 
to those with disabilities. It has also replaced and improved 
vital facilities such as toilets and parking and so forth. 
Interestingly enough, in this particular demo program, local 
communities and users of these parks and other facilities have 
been participants in determining how the fees would be 
expended.
    Cedar Mesa, Utah, another example here drawn from the BLM 
experience, used its fee demo monies to support volunteers and 
seasonal staff, as well as other resources to invest in 
recreation improvements.
    The BLM has partnered with the Grand Canyon Boaters 
Association to aid in river cleanup, a cooperation that has 
resulted in the cleanup of 2 tons of trash over the last 2 
years from the rivers.
    The Fish and Wildlife Service, in just one example at Back 
Bay Wildlife Refuge, had an agreement with the city of Virginia 
Beach on programs to help serve 34 summer youth camps serving 
over 2,000 youths in education programs.
    And finally, drawing from the National Park Service, Mount 
Rainier National Park undertook a major restoration and 
expansion of its amphitheater, expanding to be able to 
accommodate 300 people, a more than doubling of that facility, 
and invested in major campground improvements.
    So, these give you a kind of a glimpse at the kinds of 
things that have been done with recreation fee programs.
    What have we learned through these efforts? Well, we have 
learned, bottom line, that the recreation fees have been 
pivotal to improving our ability to serve and enhance the 
visitor experience. Last year alone at the Department of the 
Interior, the fees raised as much as $130 million, much of 
which, the largest proportion of which, actually went into on-
the-ground improvements.
    But we have learned ways to improve the program, and we 
have heard some of the comments about the challenges here this 
morning from the Senators. But let me highlight several key 
concerns that we have come to understand.
    These range from lack of consistency in terms of the 
application of fees not only among our agencies, but from one 
unit to another. And lack of clarity, people being confused 
regarding why they are charged one kind of fee for a particular 
service in one location and a different fee for the same 
service in another location. There is some confusion over too 
many fees, a layering of fees. And then finally, as Senator 
Thomas had pointed out, is the importance of accountability and 
to date some lack of transparency in how the fees have been 
utilized, where these monies are going, whether the monies 
raised have been fully obligated and so on.
    Based on these concerns, the Fee Council that I mentioned 
has come up with what we believe are seven guiding principles 
that should help us move forward with a positive recreation fee 
program in the future, one that is centrally focused on 
benefits to the visiting public. We agree with all the Senators 
that that has to be at the core of any program.
    But consider other guiding principles. Rec fees need to be 
fair and equitable, with some degree of consistency across 
units for like activities. We believe they need to be 
collaborative not only among our agencies so that we are taking 
into account what other agencies are doing as we set our fees, 
but also with the local communities and other park units from 
States and counties. They need to be convenient both in how 
they are able to be accessed and in how they are implemented. 
They need to be accountable and transparent, as I just 
mentioned. And finally, as some of the Senators have indicated, 
we believe efficiency is important in their implementation and 
we believe we need to strive better at achieving those 
efficiencies.
    So, what does this mean for the future and any possible 
recommendations relating to the two bills before us today? We 
have five suggestions to supplement the proposals that are on 
the table today.
    First, we think the Recreation Fee Program should be an 
interagency one. We are increasingly learning that the public 
does not distinguish between one land unit and another land 
unit. Often, they are not even aware of the distinctions 
between one agency and another. When they are seeking a 
recreation experience, it is that experience that they are 
seeking. So, we think that we need an interagency effort that 
enhances coordination among the agencies that has like fees for 
like kinds of activities regardless of who is the manager of 
that particular location.
    Secondly, we would like to explore the creation of an 
interagency national pass. We think that the National Park 
Passport that was developed under Senator Thomas' leadership is 
an excellent model. We think it was a path-breaking and 
pioneering effort. What we have learned from that leads us to 
believe that we should try to expand on that success. We would 
like to propose a new annual interagency pass to expand the 
National Parks Passport to include all participating agencies 
and seamless service to the citizen, provided that there is 
that common recreation opportunity and that common investment 
in enhanced facilities in the particular units that would be 
covered.
    Third, we would like to establish an improved system of 
fees to replace the entrance and use fees. Over the years, 
starting with the Land and Water Conservation Fund fees and 
then building through the demonstration projects, we have had 
several decades of evolved fees, and they have become blurred, 
people being somewhat confused about what an entrance fee is, 
what a use fee is. Sometimes the entrance fee actually gets you 
use of certain activities, sometimes not. So, we think both 
that language has become a little bit blurred and we would like 
to propose a more consistent fee system across agencies.
    We are proposing what we call a basic fee system which 
would provide entry to those areas with a certain level of 
agreed upon investment, and that would provide you access to 
the basic opportunities and features of that park, but then 
also the opportunity for what we are proposing to be called 
expanded fees for those activities that involve kind of above 
and beyond investments for specific kinds of activities with 
special costs related to that particular user.
    Fourth, and in full concurrence with all of the Senators 
today, we believe better reporting on use of fees is necessary 
and should be established and formalized. Through our 
experience, acceptance by visitors hinges on that reporting and 
that accountability. We find from 84 to 90 percent acceptance 
of the fees when the public can see that the fee really has 
benefitted them, has gone to enhance their opportunities.
    And fifth, we would like the authority to establish also 
some site-specific or regional multi-entity passes, for 
example, to benefit regular visitors who live in a particular 
location, so in a seamless way they can go across the lands 
from one agency to another, all of which have like or similar 
recreation activities. We think this would promote partnering 
with States. We have a couple of examples, as I mentioned, one 
in Idaho already. We would like to build on that experience.
    In conclusion, I would like to take this opportunity to 
announce, in support of the President's Healthier United States 
Initiative, that the National Park Service will be waiving all 
entrance fees on June 22 and 23 of this year, in keeping with 
the longstanding tradition of providing fee-free days 
periodically. The parks and Federal lands are important 
contexts in which Americans seek to lead healthier lives. We 
thank you for your interest in recreation fees and their tie to 
making those opportunities to American citizens better.
    Thank you. I would be happy to answer any questions.
    [The prepared statement of Ms. Scarlett follows:]
Prepared Statement of P. Lynn Scarlett, Assistant Secretary of Policy, 
           Management, and Budget, Department of the Interior
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 2473, a bill to enhance the 
recreational fee demonstration program for the National Park Service, 
and S. 2607, a bill to authorize the Secretary of the Interior and the 
Secretary of Agriculture to collect recreation fees on federal lands. 
We thank the Committee for the opportunity to discuss this important 
issue.
    The Department strongly supports the efforts through S. 2473 and S. 
2607 to establish recreation fee authority and, in particular, allow 
for the reinvestment of the majority of those fees into facilities and 
services that enhance the visitor experience.
    Congress established recreation fee authority in 1965 under the 
Land and Water Conservation Fund Act, and more recently, in 1996, under 
the Recreational Fee Demonstration (Fee Demo) program. In enacting 
these bills, Congress acknowledged that the visitors to federal lands 
receive some benefits that do not directly accrue to the public at 
large and that charging a modest fee to that population is both 
equitable and fair to the general taxpayer. Congress took that idea one 
step further when establishing the Fee Demo program for the National 
Park Service (NPS), the Bureau of Land Management (BLM), the U.S. Fish 
and Wildlife Service (Fish and Wildlife Service), and the U.S. Forest 
Service (Forest Service). During the 105th Congress, a House 
Appropriations Committee Report noted that the Fee Demo program was 
developed in direct response to the federal agencies' concern over 
their growing backlog maintenance needs. Thus, the Fee Demo program 
allowed participating agencies to retain a majority of recreation fees 
at the site collected and reinvest those fees into enhancing visitor 
services. This authority was deliberately broad and flexible to 
encourage agencies to experiment with their fee programs.
    As the Committee is aware, our federal lands boast scenic vistas, 
breathtaking landscapes, and unique natural wonders. On these lands, 
many patriotic symbols, battlefields, memorials, historic homes, and 
many other types of sites tell the story of America. Federal lands have 
provided Americans and visitors from around the world special places 
for recreation, education, reflection and solace. The family vacation 
to these destinations is an American tradition.
    We want to ensure that the federal lands continue to play this 
important role in American life and culture. Fulfilling this mission 
requires that we maintain visitor-serving facilities and services, 
preserve natural and historic resources, and enhance visitor 
opportunities. Such efforts require an adequate and steady source of 
funding.
    We would like to share some of our experiences and lessons learned 
through the Fee Demo Program with you and offer several suggestions 
about the types of provisions that we believe would be important to 
include in any future recreation fee program. The agencies did 
experiment with fees during the demonstration phase. This experience 
has provided them with important information about the type of fee 
program that will meet the intended goal of enhancing the visiting 
public's enjoyment of our federal lands. In addition to continual 
efforts to evaluate, study, and improve fee programs within individual 
agencies, the agencies also have made tremendous efforts to coordinate 
and share experiences among all the participating agencies.
    To facilitate coordination and consistency among the agencies on 
recreation fee policies, the agencies recently created an Interagency 
Recreation Fee Leadership Council (Fee Council). The members of the Fee 
Council from the Department of the Interior include four Assistant 
Secretaries, four Bureau Directors, and the Director of Congressional 
and Legislative Affairs. The USDA is represented by the Under Secretary 
for Natural Resources and Environment, the Chief Forester for the 
Forest Service, and the Director of Legislative Affairs for the Forest 
Service. As Assistant Secretary for Policy, Management, and Budget, I 
co-chair the Council along with USDA's Under Secretary for Natural 
Resources and Environment, Mark Rey.The Fee Council is developing its 
first annual work plan, which tentatively includes coordinating project 
evaluation and expenditure guidelines and determining what types of 
joint research projects may be necessary to assist in setting sensible 
recreation fee policies.
    The agencies also worked together on the Recreational Fee 
Demonstration Program Interim Report to Congress, a comprehensive 
analysis of the Fee Demo Program sent to Congress in April 2002. This 
process, coupled with input from the Fee Council, has provided an 
unprecedented opportunity to evaluate the progress of the Fee Demo 
program. We would like to share with you today some of the achievements 
of the program, the lessons learned regarding our implementation of the 
program, and what we have discovered are the critical elements of a 
successful future for the recreation fee program.
                              achievements
    Consider first how the Department has worked with the public to 
ensure that the Fee Demo program benefits recreationists, the federal 
lands visitors, and local communities. Efforts to seek out public input 
are consistent with Secretary Norton's ``Four C's''--Communication, 
Consultation, and Cooperation, all in the service of Conservation. 
Given our experience with cooperative decisionmaking within the Fee 
Demo program, we believe that any future fee program should foster 
collaborative opportunities.
    At the South Fork of the Snake River Pilot Fee Project, a joint 
partnership of the BLM, the Forest Service, Idaho Department of Fish 
and Game, and the counties of Bonneville, Madison, and Jefferson, Fee 
Demo money was used to replace non-functional toilets, expand and 
elevate the parking lot, and make the facility accessible to 
individuals with disabilities at Menan Boat Access. A working group at 
this site, composed of representatives of the agencies and other 
stakeholders, allocates revenues and produces a public report 
illustrating projects and expenditures. The report is distributed to 
previous season pass holders, businesses throughout the area, and 
staff. Completed projects are listed on the back of annual season 
passes and a news release is issued. Throughout the year participating 
agencies seek input from the public, outfitters and guides, and fishing 
clubs on what projects to fund with the collected fees.
    The BLM Eagle Lake Field Office in California entered into a 
cooperative venture with a local bus company to provide, for a small 
fee, shuttle service to bring bikes and riders back to their vehicles. 
On board the shuttle is an interpreter who explains resource features 
and sites of interest along the route. The BLM has established a strong 
link with the community because local residents frequently ride the 
shuttle. This shuttle supports the local economy through the venture 
with the local bus company and by increasing tourism in the rural area.
    At Cedar Mesa, Utah, the BLM has used Fee Demo funds to provide 
support for volunteers and seasonal staff who supervise the various 
recreation improvement projects. The BLM has created a strong working 
relationship with the Grand Canyon Private Boaters Association to aid 
in San Juan River clean-up, which has resulted in removal of almost two 
tons of trash from the river and its banks over the last two years. In 
addition, the BLM worked with three separate service groups--the 
Wilderness Volunteers, the Sierra Club, and the American Hiking 
Association--to mitigate trail damage created by early season flooding.
    At the Back Bay National Wildlife Refuge, the Fish and Wildlife 
Service has established a cooperative agreement with the City of 
Virginia Beach to provide environmental education programming for 34 
summer youth camps, serving more than 2,000 young recreationists.
    At Mount Rainier National Park, the high volume of use at 
campground facilities had worn down interpretive facilities, 
contributed to visitor health and safety problems, and resulted in the 
general feeling of dissatisfaction of campground users. In Cougar Rock 
campground, the 125-seat amphitheater was too small to accommodate 
current visitation and was determined to be located too close to geo-
hazards. Fee demo funds were used to relocate the facility and increase 
seating capacity to 300. Fee demo funds also were used to ensure that 
the White River Campground restroom facilities could meet peak-season 
demand.

                 lessons learned and guiding principles
    Through the fee program, agencies have been able to fund many 
important visitor projects. At the same time, the Department also has 
learned about ways to improve the fee program. Some concerns expressed 
about the program include:

  <bullet> Recreation fees are not consistent across sites with similar 
        features and facilities;
  <bullet> The distinction between recreation fees charged for 
        ``entrance'' and those charged for ``use'' is unclear;
  <bullet> Use of recreation fees for improvements to facilities and 
        services often is not apparent to the visiting public;
  <bullet> The current pass system is confusing to the public;
  <bullet> Recreation fees should not be charged in areas with little 
        or no improvements aimed at enhancing the visitor experience;
  <bullet> Visitors should not be ``nickel and dimed'' through too many 
        separate recreation fee charges.

    In response to the criticisms received, the Fee Council has 
identified seven guiding principles that address these and other 
concerns and are critical to a successful fee program. Any long-term 
fee program should be beneficial to the visiting public, fair and 
equitable, efficient, consistent, collaborative, convenient, and 
accountable.
1. Beneficial to the Visiting Public
    The first guiding principle is that the ultimate goal of a fee 
program must be to benefit the visiting public by enhancing the 
resources, facilities, and programs utilized by those paying the fees. 
A majority of fee revenue should be kept at the site where the fee is 
collected and fees should help provide the sites with adequate 
resources to enhance and address unmet visitor service needs, reduce 
the backlog of deferred maintenance, and restore and enhance impacted 
or endangered resources. The success of a fee program lies in the 
delivery of these services, not merely in revenue generation.
2. Fair and Equitable
    Fees also should be fair and equitable--they should be affordable 
for all members of the public and not significantly affect visitation. 
Fees should be based on coherent framework that considers the 
relationship between who pays and who benefits from the services 
provided by a recreation program.
3. Efficient
    The third guiding principle is that fees should be collected and 
administered in a cost efficient, enforceable, and business-like 
manner.
4. Consistent
    The fourth guiding principle is that a recreation fee system 
should, where possible, be consistent. Visitors should expect a similar 
fee for similar activities, facilities, and services across agencies 
and in a given geographic area. The costs and benefits associated with 
a fee or pass should be clearly illustrated and easily understood by 
the visiting public.
5. Collaborative
    As you know, collaboration lies at the center of Secretary Norton's 
``Four C's''--Communication, Consultation, and Cooperation, all in the 
service of Conservation. Consistent with this philosophy is the notion 
that input from local communities, constituencies and other 
stakeholders is vitally important in establishing reasonable fees. 
Wherever possible or appropriate, agencies should coordinate fees with 
private entities, local, state, and other federal agencies to minimize 
overlapping costs and simplify fees for the visiting public.
6. Convenient
    Fees should be convenient to pay and passes easy to obtain. A 
variety of payment and location options (including by credit card, 
internet, automated fee machines, and vendor sales) should be made 
available as appropriate and feasible.
7. Accountable
    Finally, agencies should be accountable to the public and Congress. 
Agencies should collect data and publish annually public documentation 
showing how the fee program is administered. Agencies should evaluate 
fee programs to consider cost of collection, adherence to policy, 
fiscal safeguards, how well they achieve organizational, site, or 
community goals, and how fee revenues have been spent to enhance the 
visitor experience.
                the future of the recreation fee program
    Through our experience with the Fee Demo program, we now have the 
knowledge and tools to establish a successful fee program. Delay could 
result in a lost opportunity to implement a more productive, 
streamlined recreation fee system for the future designed to enhance 
the visitor's experience. The Department is ready for that challenge.
    In addition to the efforts of the individual agencies and the Fee 
Council, we have a few suggestions on legislative provisions that would 
adhere to the guiding principles and address some of the criticisms 
levied at the program.
1. The Recreation Fee Program Should Be An Interagency One
    We have found that the visiting public does not distinguish between 
lands managed by different federal agencies. Enhancing coordination 
between agencies is extraordinarily important in creating a sensible 
and efficient fee program with seamless services that is well-
understood by the public. For these reasons, we are willing and ready 
to take on the challenges of an interagency program.
    Although the nature of some agencies makes the collection of fees 
easier than for others, we believe that the relevant policy question of 
whether recreation fee authority should be given to an agency is 
whether the visiting public would benefit from enhanced recreation 
facilities and other visitor services that would result from such fees 
being charged. For example, the Bureau of Reclamation's 288 lakes 
accommodate 90 million visits a year. Just as in the case with other 
agencies, their visitors could benefit from improvements to facilities 
and services that could not otherwise be accomplished without 
recreation fee authority. As noted above, the BLM, the Fish and 
Wildlife Service, and the Forest Service have utilized their fees in 
creative and productive ways to enhance the visitor experience. Other 
agencies outside the Department of the Interior and USDA may also 
benefit from such a program.
2. An Interagency National Pass Should Be Established
    For reasons that include those above, we also should explore the 
creation of a new interagency national pass that would provide visitors 
with a convenient and economical way to enjoy recreation on federal 
lands while at the same time, serve to educate the American public 
about their federal lands and available recreational opportunities. We 
believe that the National Park Passport developed by Mr. Thomas a few 
years ago is an excellent model for such a program, and we would like 
to expand on its successes--the image competition as well as the modern 
marketing, and innovative, administration provisions. Therefore, we 
propose creating a new annual interagency pass would expand the 
National Parks Passport to include all participating agencies and would 
consolidate the Golden Passes established under the Land and Water 
Conservation Act. By consolidating these passes, the interagency pass 
would decrease visitor confusion about passes and shift the emphasis to 
recreation opportunities on our federal lands rather than an agency-
centric view. We envision the interagency pass would include new and 
expanded standard benefits that are consistent across agencies and more 
inclusive than benefits under the Golden Eagle Pass; we envision the 
pass to be provided to seniors at steep discounts and to the disabled 
community free of charge; and we envision the pass retaining the look 
and program qualities of the National Park Passport. The distribution 
formula of pass revenues would be data-driven, established, and 
periodically reevaluated through the Fee Council. We look forward to 
working with the Committee to determine the appropriate formulas.
3. An Improved System of Fees to Replace Outdated ``Entrance'' and 
        ``Use'' Fees Should Be Created
    Each of the agencies have molded and shaped the LWCF definitions of 
``entrance'' and ``use'' fees differently over the last several 
decades, thereby blurring the distinction between these fees and 
affecting how the Golden passes are used. The lack of consistency 
between and within agencies has led to visitor confusion and 
frustration. For this reason, we propose creating a new system of fees 
that will have consistent application across all agencies.
    Instead of an ``entrance'' fee, agencies would be authorized to 
charge a ``basic recreation'' fee only at designated units or areas 
where a substantial investment has been made by the agency to enhance 
the visitor experience at that location. Under this system, 
restrictions would be put in place to ensure that the visiting public 
would not be charged if the agency is not making a certain level of 
investment in visitor services. All passes established would cover the 
basic recreation fee at all sites. Thus, basic recreation activities 
that were once inappropriately charged a ``use'' fee would now be 
covered by the passes.
    While the Department would like to make as many efforts as possible 
to streamline the recreation fee system, fairness and equity concerns 
argue against the elimination of all layering of fees. The notion 
behind charging a fee beyond the basic recreation fee is that certain 
recreation activities require additional attention by agency staff or 
involve costs that should not be borne by the general public through 
taxpayer funds or by the rest of the visiting public through the basic 
recreation fee. The system must balance fairness and equity principles 
by carefully considering the relationship between who pays and who 
benefits.
    Instead of a ``use'' fee, as now charged, we suggest that a fee for 
enhanced services, activities, and facilities be charged as an 
``expanded recreation'' fee. The types of activities for which an 
expanded recreation fee may be charged will, to the extent possible, be 
consistent across agencies. Specific prohibitions and guidance will 
safeguard against blurring the two categories of fees to ensure that: 
1) the system is understandable to the public; 2) the public is not 
``double charged'' when enjoying the primary attraction of the site; 
and 3) passes, which are proposed to cover the basic recreation fees, 
retain full value.
4. Better Reporting on the Use of Fee Revenues Should Be Established
    The purpose of the recreation fee program is to improve the 
visitor's recreation experience. Visitor acceptance of fees depends 
upon: 1) whether improvements to the site are visible to them and, 2) 
whether a majority of the fee revenues stay at the site visited. For 
this reason, the Department would like to develop a meaningful 
reporting requirement to Congress to ensure that fee revenues are used 
efficiently and effectively for the benefit of the visiting public. We 
also are making efforts to better demonstrate, on site, to the visiting 
public how and where their recreation fees are being spent and to 
explore more creative ways to seek public input on visitor projects 
that fee revenues should fund.
5. Authority to Establish Agency Site-Specific and Regional Multi-
        entity Passes Should Be Provided
    A well-structured, appropriately priced regional multi-entity pass 
can provide certain types of visitors with a value option as well as 
provide important opportunities for the federal government to partner 
with state and private entities to promote tourism and improve the 
experience of their shared visitors. Both the site-specific and 
regional multi-entity passes also could provide regular visitors, often 
residents of nearby communities, with convenient and economical pass 
alternatives.
    These concepts result from a great deal of analysis and discussion 
within the Department and with the Department of Agriculture through 
the Fee Council. We believe these concepts would positively contribute 
to any legislation that moves forward on recreation fee authority. We 
look forward to working with the Committee and our interagency partners 
to further discuss and explore these ideas.
    I would like to take this opportunity to announce that, in support 
of the President's Healthier U.S. Initiative, the National Park Service 
will waive all entrance fees on June 22-23, 2002. The National Parks 
and all our federal lands provide an important context on which 
Americans are seeking to lead healthier lives. We hope you will join us 
this weekend at your nearest National Park.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the subcommittee may have.

    The Chairman. Thank you very much.
    Mr. Rey, why do you not go right ahead.

 STATEMENT OF MARK REY, UNDER SECRETARY FOR NATURAL RESOURCES 
                AND ENVIRONMENT, DEPARTMENT OF 
                          AGRICULTURE

    Mr. Rey. Thank you. I am here today to present the 
Department's views on S. 2607 and S. 2473. In addition, I would 
like to discuss with you the results of the Forest Service's 
implementation of the Recreation Fee Demonstration Program.
    Assistant Secretary Scarlett has provided you testimony on 
the interagency coordination and accomplishments that I will 
not repeat. They are in her statement for the record. I will 
only add my agreement with her testimony and my hope that the 
legislative framework that you may provide us will further the 
interagency cooperation we strive for in delivering a seamless 
Federal lands recreation program.
    The Department supports S. 2607 with the modifications that 
Assistant Secretary Scarlett indicated and that have been 
provided to your staff.
    The Department would also support S. 2473 with the hope 
that Congress would include in the bill authority for the 
Forest Service along with the Interior agencies that have 
recreation responsibilities to charge and retain recreation use 
fees.
    More detailed views are included in my statement for the 
record on both measures.
    Let me talk a little bit about our experience with the 
Recreation Fee Demonstration Program. That program has provided 
a tremendous opportunity for Forest Service managers to meet 
the expectations of recreation visitors to the national 
forests. The authority for the Fee Demonstration Program was 
enacted in 1996 to demonstrate the feasibility of user-
generated cost recovery for the operation and maintenance of 
recreation areas or sites on Federal lands. Through fiscal year 
2001, nearly $106 million in new funding has been generated 
above congressional appropriations to enhance the visitor 
experience at 87 national forest projects across the United 
States. Program funds are making a crucial difference in 
providing quality recreation services, reducing the maintenance 
backlog, enhancing facilities, enhancing safety and security, 
and conserving natural resources.
    With the authorization of a long-term recreation fee 
retention program, the Forest Service, along with the Interior 
agencies with which we work, can build further on these 
successes. Improvements in payment convenience, accountability, 
market analysis and research, partnerships with interested 
groups, interagency coordination, and consistency in program 
delivery will be possible with long-term authorization.
    We believe the important elements of long-term recreation 
fee authority should include: first, providing enough 
flexibility in the program to meet the unique needs of visitors 
with a solid framework for consistency among agencies involved 
in the program; second, retaining all fees without offset for 
direct reinvestment into recreation sites, facilities, and 
services to benefit visitors; third, allowing for cooperative 
efforts with other entities, particularly Federal, State, 
tribal, local and private entities, in sharing pass programs, 
fees and revenues; fourth, allowing for retention of recreation 
special use permit fees to provide additional enhancements; and 
fifth, providing enforcement capability for fair and equitable 
program implementation.
    The Visit Idaho Playgrounds pass is just one example of 
cooperative efforts to benefit visitors. This annual pass is 
valid at over 100 recreation sites operated throughout Idaho by 
the Forest Service, the Bureau of Land Management, the Bureau 
of Reclamation, the National Park Service, and the Idaho 
Department of Parks. Passes are available for purchase via a 
web site or by a toll-free telephone number for visitor 
convenience. Revenues are shared according to a formula 
developed for the business plan and revenues are directed back 
to the recreation sites for improvements in facilities and 
services.
    Additional examples of the benefits to visitors made 
possible by the Recreation Fee Demonstration Program include: 
about $23 million to reduce backlog maintenance and improve 
health and safety through repair and replacement of inadequate 
facilities; over $11 million for new and improved interpretive 
and informational materials and services such as signs, 
brochures, campfire talks; about $4 million for habitat 
enhancement and resource preservation such as improvements for 
wildlife viewing and fishing, erosion control devices, and 
historic building restoration; about $3 million for law 
enforcement to enhance the safety and security of all users; 
over $8 million for facility enhancements such as new trails, 
new campsites, and accessibility for the disabled; and about 
$28 million for annual operations, including visitor services, 
litter removal, water sampling, supplies, and services such as 
reserved permits, camping reservations, and heritage 
expeditions.
    Initiation of fees has clearly stirred some controversy and 
generated media interest. The Forest Service has made a number 
of changes to projects based on public comments, including 
consolidating fees, providing better information on 
expenditures, and conducting market studies prior to 
implementation.
    In fact, in response to the concerns we have heard, we have 
developed a number of principles to guide our implementation of 
the Fee Demonstration Program through the remaining years of 
its current authorization. These principles are included in my 
statement for the record and are reflected, in pertinent part, 
on the principles that we developed together with the 
Department of the Interior in trying to evaluate what would 
make a good permanent fee authorization program.
    In addition, we have identified sites and services where no 
fees should be charged. For example, we would not charge a fee 
for general access to national forests or national grasslands. 
We would not charge a fee for undesignated parking along 
roadways, for overlooks, or for scenic pullouts. We would not 
charge a fee for dispersed recreation areas with low or no 
expenditures in facilities or services, and we would not charge 
a fee for general information services and visitor centers.
    I look forward to working with you, Mr. Chairman, and the 
other members of the committee and our agency partners to 
implement a permanent fee program. This concludes my statement, 
and I would be happy to answer any questions that you might 
have.
    [The prepared statement of Mr. Rey follows:]
   Prepared Statement of Mark Rey, Under Secretary of Resources and 
                 Environment, Department of Agriculture
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear before you today. I am Mark Rey, Under Secretary 
of Agriculture for Natural Resources and Environment. I am here today 
to present the Department's views on two bills, S. 2607, the Federal 
Lands Recreation Fee Authority Act, and S. 2473, the Recreational Fee 
Authority Act of 2002. In addition, I would like to discuss with you 
the results of the Forest Service's implementation of the Recreational 
Fee Demonstration Program that is authorized by section 315 of Public 
Law 104-134.
    Assistant Secretary, Lynn Scarlett, who co-chairs the Interagency 
Recreation Fee Leadership Council with me, has provided testimony on 
interagency coordination and accomplishments that I need not repeat. I 
will only add my agreement with her testimony and my hope that the 
legislative framework you provide will further the interagency 
cooperation we strive for in delivering a seamless Federal lands 
recreation program.
    The Department supports S. 2607. The Department also would support 
S. 2473 if Congress were willing to include in the bill authority for 
the Forest Service, along with Interior agencies that have recreation 
responsibilities, to charge and retain recreation use fees.
                                s. 2607
    S. 2607 authorizes the Secretary of the Interior and the Secretary 
of Agriculture to collect recreation fees at units or areas of Federal 
lands, such as national parks, national recreation areas, and national 
monuments. In addition, the Secretaries are authorized to collect fees 
at other areas if they are managed primarily for recreation purposes 
and contains at least one major recreation attraction; have had 
substantial Federal investments; and if fees can be efficiently 
collected at public access points. The bill authorizes the collection 
of recreation use fees for specialized recreation sites, facilities, 
equipment, or services such as campgrounds, boat launches, and 
reservation services and authorizes the collection of special 
recreation permit fees for groups and commercial activities.
    S. 2607 contains language similar to the Land and Water 
Conservation Fund Act that authorizes the sale of Golden Eagle, Golden 
Age, and Golden Access Passports. This bill also retains authority for 
the Secretary of the Interior to sell the National Parks Passport.
    S. 2607 authorizes the Secretaries to retain and spend 80 percent 
of the fees collected at the unit or area at which they were collected 
for resource preservation, backlogged repair, maintenance, and other 
specified uses. The remaining 20 percent is available for expenditure 
at other high priority agency recreation sites.
    The Department supports S. 2607 and would like to work with the 
Committee on language to clarify the application of recreation use fees 
and to correct certain conforming amendments.
                                s. 2473
    S. 2473 authorizes the Secretary of the Interior to charge and 
retain fees for admission and use of units and areas administered by 
the National Park Service for the purposes of repair, maintenance, 
interpretation, resource preservation, and other similar uses.
    The Department would like to work with Mr. Thomas to amend the bill 
to include authority for the Forest Service, along with Interior 
agencies that have recreation responsibilities, to charge and retain 
fees. This change would permit the agencies to continue successful 
implementation of the Recreational Fee Demonstration Program authorized 
by section 315 of Public 104-134.
                 recreational fee demonstration program
    The Recreational Fee Demonstration Program has provided a 
tremendous opportunity for Forest Service managers to meet the 
expectations of recreation visitors to the national forests. The 
authority for the Recreational Fee Demonstration Program was enacted in 
1996 to ``demonstrate the feasibility of user-generated cost recovery 
for the operation and maintenance of recreation areas or sites'' on 
Federal lands. Through fiscal year 2001, nearly $106 million in new 
funding have been generated above Congressional appropriations to 
enhance the visitor experience at 87 national forest projects across 
the United States. Program funds are making a crucial difference in 
providing quality recreation services, reducing maintenance backlog, 
enhancing facilities, enhancing safety and security, and conserving 
natural resources.
    With authorization of a long-term recreation fee retention program, 
the Forest Service, along with the Interior agencies with which we 
work, can build further on its successes. Improvements in payment 
convenience, accountability, market analysis and research, 
partnerships, interagency coordination, and consistency in program 
delivery will be possible with long-term authorization.
    Important elements of long-term recreation fee authority would 
include: providing enough flexibility in the program to meet the unique 
needs of visitors, yet a solid framework for consistency among agencies 
in program delivery; retaining all the fees without offset for direct 
reinvestment into recreation sites, facilities, and services to benefit 
visitors; allowing for cooperative efforts with other entities 
(federal, state, tribal, local, and private) in sharing pass programs, 
fees, and revenues; allowing for retention of recreation special use 
permit fees to provide additional enhancements; and providing 
enforcement capability for fair and equitable program implementation.
    The Visit Idaho Playgrounds pass is just one example of cooperative 
efforts to benefit visitors. This annual pass is valid at over 100 
recreation sites throughout Idaho operated by the Forest Service, 
Bureau of Land Management, Bureau of Reclamation, National Park 
Service, and Idaho Department of Parks. Passes are available for 
purchase via a website or by a toll-free telephone number for visitor 
convenience. Revenues are shared according to a formula developed for 
the business plan, and revenues are directed back to the recreation 
sites for improvements in facilities and services.
    Additional examples of the benefits to visitors made possible by 
the Recreational Fee Demonstration Program include:

  <bullet> About $23 million to reduce backlog maintenance and improve 
        health and safety through repair and/or replacement of 
        inadequate toilets, picnic tables, building roofs, water and 
        sewer lines, trails, and other facilities. Examples include 
        maintenance of 940 miles of trails in Oregon and Washington; 
        repair or replacement of four toilets, 300 shade ramadas, 25 
        picnic tables, and 50 fire ring/grills at Roosevelt Lake in 
        Arizona; and repair of a sewer line at Sitting Bull Falls in 
        New Mexico.
  <bullet> Over $11 million for new and improved interpretive and 
        informational materials and services, such as signs, brochures, 
        campfire talks, and visitor center staffing. Visitor centers at 
        Mount St. Helens National Volcanic Monument in Washington 
        operated for longer hours with additional interpretive talks 
        than otherwise possible; Evans Notch Visitor Center in New 
        Hampshire contacted 34,000 visitors and provided numerous 
        children's programs; El Portal Visitor Center in Puerto Rico 
        reached some 8,400 visitors through the ``Rent-A-Ranger'' and 
        ``Forest Adventure'' programs; and over 250,000 visitors to 
        Palatki Ruins in Sedona, Arizona enjoyed interpretive talks.
  <bullet> About $4 million for habitat enhancement and resource 
        preservation such as improvements for wildlife viewing and 
        fishing, erosion control devices, and historic building 
        restoration. The Pack Creek bear viewing platform in Alaska 
        allowed more than 1,400 visitors to safely view brown bear. 
        Historic cabins throughout Arizona and New Mexico were 
        rehabilitated for public rental.
  <bullet> $3 million for law enforcement to enhance the safety and 
        security of all users, including 157,368 additional visitor 
        contacts, 2030 public ``emergency assists'', and extinguishing 
        4795 abandoned campfires in southern California. At Canyon 
        Creek in Colorado, visitor contact increased 80 percent;
  <bullet> Over $8 million for facility enhancements such as new 
        trails, new campsites, and accessibility for the disabled. Some 
        examples include improved wheelchair accessibility at 6 
        restrooms, 3 boat ramps, 2 fishing piers, and a beach on the 
        Chequamegon-Nicolet National Forest, Wisconsin, and new 
        restrooms and interpretive shelter at Keown Falls, Georgia;
  <bullet> About $28 million for annual operation including visitor 
        services, litter removal, toilet pumping, water sampling, 
        supplies, and services such as reserved permits, camping 
        reservations, and heritage expeditions. One ton of refuse and 
        abandoned materials were removed from wilderness areas in Idaho 
        and Montana; Boundary Waters Canoe Area in Minnesota maintained 
        660 wilderness campsites and 333 miles of trails; the Allegheny 
        National Forest in Pennsylvania increased visitor contacts at 
        boat launches and increased recreation site maintenance; and in 
        numerous additional ways throughout the nation, National Forest 
        visitors enjoyed enhanced services.

    Initiation of fees has stirred some controversy and generated media 
interest. The Forest Service has made a number of changes to projects 
based on public comment, including consolidating fees, providing better 
information on expenditures, working with other agencies, conducting 
market studies prior to implementation, and continuing to listen, 
learn, and change.
    In fact, in response to concerns we have heard, we have developed 
principles to guide our implementation of the demonstration program 
through the remaining years of its current authorization. These 
principles include the following:

  <bullet> A seamless fee program across agencies that is designed for 
        visitor convenience;
  <bullet> Fees are part of a larger financial plan for recreation that 
        includes appropriations, volunteers, partnerships, and 
        interagency cooperation;
  <bullet> Each national forest and grassland will continue to provide 
        areas where a variety of outdoor recreation opportunities are 
        available free of charge;
  <bullet> Fee revenues are retained at the site where they are 
        collected to provide desirable and visible benefits to the 
        visitor;
  <bullet> Program implementation will be based on consistent criteria 
        rather than through a set number of sites;
  <bullet> Communities of place and interest are consulted on decisions 
        and informed on how the revenues are invested.

    In addition we have considered the types of sites and services 
where no fees would be charged. We would not charge a fee for general 
access to National Forests or Grasslands. We would not charge a fee for 
undesignated parking along roadways, for overlooks, or for scenic 
pullouts. We would not charge a fee for dispersed recreation areas with 
low or no expenditures in facilities or services. We would not charge a 
fee for general information services and centers.
    I look forward to working with you, Mr. Chairman, other members of 
the Committee, and our interagency partners to implement a permanent 
fee program. This concludes my statement. I would be glad to answer any 
questions that you may have.

    The Chairman. Thank you all very much.
    Let me start by asking each of you about this issue of 
affordability of these fees by the general public. I think you 
both make the case that fees need to be set at a level that 
does not discourage any of the public from using our public 
lands, that that is a primary goal. How do we know that that is 
the case? If we set a fee, how do you determine that that fee 
is not discouraging people from coming to that recreational 
area or, if they come and pay it the first time, that it is not 
a reason why they will not come back?
    Secretary Scarlett.
    Ms. Scarlett. Senator, we have a variety of measures by 
which we try to make that determination and assessment. First, 
at the national parks and Bureau of Land Management and Fish 
and Wildlife Service locations, we do surveying of all of those 
who attend the facilities and ask the question whether the fees 
are too high, too low, whether they would come back, whether 
they are supportive of them. The response rate to those, in 
terms of positive response, runs between about 84 percent and 
90 percent, in terms of the fee level, as well as the uses of 
the fees.
    In addition, we use an administrative process to set the 
fees. It varies slightly from one agency to the other, but we 
do some comparability analysis with other locations and other 
kinds of private and other fee-charging areas to assess 
comparability and make sure that we are appropriately priced. 
Then, of course, we also have a lot of public engagement. We do 
not change fees without appropriate discussion, a plan in 
place, a communication effort, and a two-way communication with 
the public. So, we are acutely cognizant of that problem.
    I should conclude with one final point. We also track to 
see whether the fees have any impact on attendance, and one of 
our abiding principles is that whatever the fee is, it should 
not adversely affect attendance. So, we have tracked that and 
we have been able to show that the fee, when charged, does not 
result in a drop in attendance. So, we are very carefully 
monitoring that across our bureaus.
    The Chairman. Mr. Rey, did you have anything to add?
    Mr. Rey. Yes. In our case, each of our 87 national forest 
rec fee demo sites is preceded by a business analysis, 
including a civil rights impact analysis. The survey work we 
have done is providing results comparable to the Department of 
the Interior's in terms of visitor acceptance of the fees and 
the fee amounts.
    Additionally, in many areas, we publicize free days 
throughout the year, as well as work with local social service 
agencies to distribute fee passes when we know we are serving a 
significant cross section of low income or disadvantaged 
populations.
    The Chairman. I think both of you mentioned this. Mr. Rey, 
you mentioned it more specifically perhaps. Are there some 
pilot projects, since this has been a fee demonstration 
program, that you tried that clearly were mistakes and we 
clearly should not continue in or permit them in any 
legislation that we enact in this area?
    Mr. Rey. I think a couple of things we have learned from 
the demonstration program are first, that the public resistance 
to multiple fees crossing among agency jurisdictions is perhaps 
the most prominent outcry of opposition that we have heard. 
With regard to national forest sites specifically, we have 
heard, with very few exceptions, that a general access fee is 
highly resisted by the public for many of the reasons that 
Senator Thomas indicated. I think those are probably the two 
biggest lessons that we took away from our experimentation with 
the program.
    The Chairman. One of the concerns that I think people have 
had about charging fees and particularly charging fees which we 
intend to be kept at the local level is that it builds in an 
incentive for local land managers to jack up fees and look for 
new opportunities to impose fees. Are there safeguards against 
that happening? Is there a way that you ensure we do not have 
such an adverse incentive here, that a particular location sort 
of prices itself out of the public's reach?
    Mr. Rey. I think that the amount of opposition that 
generates is the principal safeguard. We hear very quickly and 
very loudly from the public when they suspect that they are 
being charged too much for something or being charged for 
something where the service that is being delivered is out of 
line with the amount that is being charged.
    I also think that the limitation on the amount that could 
be spent for development in any one area that is included in 
the current recreation fee demonstration legislation is a 
safeguard against a forest supervisor deciding that he is going 
to build a Taj Mahal or Disneyland on his particular national 
forest.
    The Chairman. Did you have any thought on that, Ms. 
Scarlett?
    Ms. Scarlett. Some of the measures that I discussed, as it 
relates to concern about access by all Americans, apply in this 
instance too. We do develop business plans before moving 
forward with any fee changes and they must be approved 
administratively beyond the individual unit. So, the decision 
does not reside solely within that unit, and that provides a 
certain safeguard.
    In addition, as Mr. Rey said, we are constantly engaging in 
surveys and public input and advance notice before any fees or 
fee changes are implemented to ensure that we get that feedback 
and keep the fees in line.
    I should say also with respect to fees, in the business 
plan discussion, one of the elements we look at is what would 
be the impact on visitorship. So, that again is a constraining 
factor. If you raise that fee to a point where you are going to 
adversely affect visitors, then that would result in the non-
approval of that proposed increase.
    The Chairman. Senator Campbell.
    Senator Campbell. Thank you, Mr. Chairman.
    Maybe I missed something when I stepped out of the room for 
a bit. I am wondering about how we police this. Every piece of 
legislation has some form of enforcement mechanism. From where 
I live in southwest Colorado near Durango--we have a little 
ranch there--within 50 miles in literally every direction, 
certainly east and north and west, maybe not south, there are 
probably between 10 and 15 entrances into the forest. There are 
little roads. There will be a little sign there saying, 
entrance to San Juan National Forest or Un Compadre or 
something. How do you intend to monitor all those places where 
people can go in the forest?
    Mr. Rey. We do not.
    Senator Campbell. You do not. So, do you do it on the honor 
system or something?
    Mr. Rey. We do not propose an entrance fee for the national 
forests. What we propose is a basic use fee for sites which 
have a reasonable amount of development.
    Senator Campbell. That means if somebody wanted to go in 
with his snow mobile or something, there is no fee for that?
    Mr. Rey. That is correct.
    Senator Campbell. No fee for any passive things like taking 
pictures or whatever. No fee for that, only for something 
active like cutting a Christmas tree before Christmas.
    Mr. Rey. There is a fee for that.
    Senator Campbell. There is already a fee. They have got to 
get a permit for that.
    Mr. Rey. Now, as far as snow mobile use is concerned, there 
are some national forests where we have developed snow mobile 
trails, and the amount of investment in those trails could be 
an area where we not only have justified an investment to 
provide a quality user experience, but we also have a means of 
monitoring access because there are specific trail heads and 
parking lots. But there are also a lot of areas where snow 
mobile use is allowed in a cross-country fashion. We would not 
be trying to charge a fee for those.
    Senator Campbell. Well, then what would you define as use? 
An improved facility where you would stay for a period of time?
    Mr. Rey. I define it slightly more broadly, but that would 
certainly be one kind of facility that would qualify for a fee 
in our proposal. I think where we are providing an additional 
benefit to a recreational visitor that inures as a result of a 
hard investment in infrastructure, that is the kind of place 
where we would be talking about a basic recreation fee.
    Senator Campbell. Okay, and maybe one last question. A 
couple of times in the last 10-15 years, we have dealt with 
increased fees with parks and other facilities. There has been 
at least concern from some people that if we increase fees, on 
the one hand, you increase the fees to improve the facilities. 
On the other hand, some people are saying, if you charge the 
fees, what will happen is Congress will back out of an 
obligation of appropriating the amount of money that is needed 
to maintain and upgrade the facilities. Do you see any danger 
of that?
    Mr. Rey. Well, that is something we would hope you would 
not do if you pass the fee legislation.
    Senator Campbell. I would too, but I know it has been a 
concern that we would not accept our responsibility. Of course, 
we do not now, that is why we have got such a backlog, 
unfortunately, of purchasing and maintaining public lands.
    Mr. Rey. I suppose that is the answer to the quandary. The 
reason we are here talking about fees is that the backlog does 
exist.
    Senator Campbell. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Ms. Scarlett, I was talking about invasive species. The 
delay of even 1 year can make a big difference in the 
vegetation inside our national parks. Historically there has 
been resistance to spending park fees on projects outside park 
boundaries due to fears that the practice might lead to 
spending for non-park priorities.
    However, on Maui, we have an imminent threat to park 
resources, and as I mentioned, Miconia is encroaching from 
outside the park into the park. We have responsible State and 
local partners willing to work with the Park Service to ensure 
that funds are spent on park priorities.
    My question to you is what are your recommendations for 
using park resources such as recreational fees to help protect 
parks against an imminent threat lying just outside its 
boundaries?
    Ms. Scarlett. Thank you, Senator. Let me give a two-pronged 
response to that. We would be very interested in working with 
you and working with the Senate in exploring the opportunity in 
general for some of the kinds of investments that you describe. 
It is my understanding that the National Park Service, in 
contrast to the Bureau of Land Management and Fish and Wildlife 
Service, actually does not currently have the authority to 
expend any monies, as opposed to recreation fee monies, outside 
of the park boundaries.
    As it relates to the recreation fee specifically, our view 
is that those fees need to be expended on visitor enhancing 
opportunities within the units where the fees are charged. 
However, we certainly would be interested in exploring whether 
other opportunities would be available for the kind of 
investment you are talking about and, in fact, have proposed in 
our 2003 budget a cooperative conservation initiative, the very 
idea of which, at its centerpiece, would be to do that sort of 
thing. So, we would look forward to working with you on that.
    Senator Akaka. Thank you very much for that.
    You both have been talking about plans. Mr. Rey, what 
suggestions or plans does the agency have for streamlining the 
processes that are being used now on these fees?
    Mr. Rey. I think we have done a pretty good job in the 
years that we have used the Fee Demonstration Program in 
streamlining processes. In the last full year of 
implementation, we were down to only 14 percent of the money 
actually being used to administer the program, the remaining 86 
percent for use on the recreation sites.
    I think one of the most important proposals for 
streamlining the processes which will assist not only the 
public, but the agencies as well, is a consistent program of 
fee administration across all Federal agency ownerships. I 
think by combining our efforts, we are going to bring 
additional administrative efficiencies out of the 
administration of the program beyond what we have experienced 
so far.
    Additionally, I think that with a longer-term authorization 
with the certainty that the program is not subject to the 
vagaries of the appropriations debate each year, you will see 
us being able to implement some investments that will reduce 
cost of implementing the program as well.
    Senator Akaka. Thank you very much. Thank you very much, 
Mr. Chairman.
    The Chairman. Thank you.
    Senator Thomas.
    Senator Thomas. Thank you, Mr. Chairman.
    First of all, I want to thank both of you and the agencies 
that you are with because I think you have done a lot of work 
on this demonstration aspect of it and we can learn from that 
certainly.
    We need to have a more efficient way to administer. I guess 
that is the main reason I started out with parks because parks, 
just by their nature, you collect the fee. Forests, on the 
other hand, and particularly BLM--it is terribly difficult to 
do that. Mark, you mentioned 14 percent. I think there is some 
evidence some collection has been as much as high as 35 percent 
of collection fees were used to collect. And that is too high.
    Mr. Rey. That is clearly too high.
    Senator Thomas. We certainly, I do not think, can have it 
that way.
    And you have already suggested this broad application has 
to be narrowed to some suitable sites. We need clear 
definitions and criteria for those sites, which we have not had 
in the past.
    I am a little concerned. I see some of BLM's here, for 
example, where the revenues in the year were $1,000. Now, when 
you take out the cost of that, is that worth doing? Lynn?
    Ms. Scarlett. Senator, we share your concern on the 
efficiency and, of course, early on some of our cost of 
collection was high relative to the overall portion. We right 
now have that down not quite as low as the Forest Service, but 
averaging about 20 percent, 21 percent. There are some sites 
where the amount generated relative to the cost remains high, 
and we are going back and actually working on policy guidance 
and administration guidance to address that question.
    Senator Thomas. Let me ask you this. Yosemite, I am told, 
had 97 employees dedicated to fee collection, supervised by a 
GS-12 and a GS-11. Now, is there not a way to collect fees when 
you have a gate that people have to go through that is a little 
less expensive than that?
    Ms. Scarlett. We think there is. We think there are 
substantial improvements. As I noted, while on average we are 
now at about 21 percent cost of collection relative to overall, 
there are some sites that go as high as 60-65 percent, and 
clearly that is not satisfactory. So, we would like to go back 
to the drawing boards and make those improvements.
    I should affirm what Mark Rey said which is we think that 
an extended authorization would actually help us in that effort 
because it would allow us to make some investments in 
automation and other practices that are more difficult to do 
when we are on a 1-by-1-year basis.
    Senator Thomas. Well, when you do this--of course, you know 
this, but I have to say it--you have to accept the 
responsibility for oversight and accountability on this thing. 
Quite frankly, quite often the top layers of these agencies are 
not doing that, and your regional people and so on. So, that is 
something you have to do.
    We have advertised that 80 percent of the fees go back to 
where they are collected, and that has not always been the 
case. You cannot continue to say that, falsely, 80 percent is 
going there when it is not.
    Ms. Scarlett. Yes. There are a couple of things that we are 
trying to do to improve that accountability and the actual 
investment back into the sites where the investment is made. 
One, in terms of cost accounting and cost management, we are 
moving towards a very transparent system where the actual 
breakdown of the revenues collected and how specifically they 
are expended will be made available on a regular and very 
transparent basis. We think that will provide not only better 
information to the public, but better discipline to those 
actually implementing the program. And then we are going back 
and reviewing some of the very problems you identified.
    Senator Thomas. The Friends Group at Sequoia Kings Canyon 
gives tours of the park and collects the fee under this program 
and then the private organization keeps the fee. Is that the 
way you are going to operate?
    Ms. Scarlett. That is not our general intent. I am not 
familiar with that particular circumstance. I would have to 
look into what they are doing and why they are doing it. In 
general, I would say, according to the guidance that we are 
developing, we believe it is very important that the fees go 
back to the investments in the visitor enhancing activities. 
The Sequoia incident I am not familiar with.
    Senator Thomas. We all agree with going back there, but 
there has been a slowness in the obligation of the funds. There 
are still funds out there now that have been collected and they 
have not decided what to do with them. If visitors are going to 
see the impact of their fee, there has to be some push to get 
that done.
    Ms. Scarlett. The good news is the obligation rates are 
dramatically improved. This past year, the National Park 
Service was at about 92 percent obligation of the revenues 
generated in 2001. At our Fish and Wildlife and BLM, it is 75 
percent or above. You are correct, however, historically that 
obligation rate was much lower.
    Some of that resulted from the early-on projects actually 
having a substantial design and planning element, so it took a 
while to get them up and running. We are now in catch-up and 
getting closer to full obligation. Some of it, however, does 
require greater streamlining in that planning and development 
process which we have undertaken.
    Senator Thomas. Well, as you know, I am very supportive of 
this idea, but it is going to take management to do that, and 
we are going to have to have clear criteria for where these 
sites are particularly, Mark, in the Forest Service. BLM, I 
think, is especially so. We cannot just have the notion that 
you have to pay to go on public lands because that is not what 
we are doing here, I hope. Half of Wyoming is public lands, and 
they are not going to pay to go there to look for an antelope. 
So, there has to be some real management on this.
    I think we can work that out, and I am certainly looking 
forward to working with the chairman. I think we can make this 
better for visitors and help make these visitations more 
useful.
    So, thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Rey, let me ask. You say at the end of your statement 
here that ``we would not charge a fee for general access to 
national forests or national grasslands. We would not charge a 
fee for undesignated parking along roadways, for overlooks, or 
for scenic pullouts. We would not charge a fee for dispersed 
recreation areas with low or no expenditures in facilities or 
services, and we would not charge a fee for general information 
services and centers.'' Is that current policy? Are we safe in 
assuming that the Forest Service is not charging fees for any 
of those at this time?
    Mr. Rey. With a few exceptions. Probably the most notable 
exception is the Adventure Pass that has been developed by the 
four national forests that surround the Los Angeles basin and 
the unique circumstances that exist there. The four national 
forests that surround the Los Angeles basin provide roughly 76 
percent of the total amount of open space available for 
recreation for the residents of the Los Angeles basin. The 
canyons that are on the south- and west-facing slopes of those 
forests are canyons that are within a half an hour's drive of 
downtown Los Angeles.
    With a strong degree of local support, the forests there 
have developed an entry pass and have used the pass 
successfully not only to improve recreation quality, but to 
demonstrably change the visitor use of those four national 
forests, essentially driving out Los Angeles gangs and 
restoring family-centered recreation to Forest Service 
campsites and other recreation facilities that were law 
enforcement problems prior to the initiation of the Adventure 
Pass. So, that is sort of an exception to the general rule.
    But for the most part, that exception aside, the things 
that I indicated that we would not charge fees for are things 
that we are not charging fees for.
    The Chairman. Ms. Scarlett, let me ask you about how this 
interagency program would work. At the current time, each of 
the various land management agencies sets its own fee schedule 
and then meets with others, to the extent that you have 
described here, but there is no formal interagency program.
    Would the authority of the individual land management 
agencies to set their fees be given over to some interagency 
group? Is that the way you envision it, or how much 
centralization of authority would you anticipate as part of 
this?
    Ms. Scarlett. We would anticipate a kind of a two-tiered 
approach, if you will. Number one, under the interagency 
approach that we are proposing, we would require or ask that 
the two Secretaries, respectively, of the Department of the 
Interior and Department of Agriculture be given authority to 
work together to review fees and to establish common policies 
relating to those fees to ensure that coordination.
    On a second tier, we would also in a more----
    The Chairman. They have that authority now, do they not? If 
the Secretary of Agriculture and the Secretary of the Interior 
decide over lunch this afternoon or this noon that they would 
like to do this jointly, there is no prohibition against their 
doing it, is there?
    Ms. Scarlett. There is no prohibition to my understanding. 
We believe that it would be helpful to actually have that 
requirement as part of the process to ensure in all instances 
the appropriate coordination and cooperation. In addition, that 
effort would be supplemented by the work of the Interagency 
Recreation Fee Leadership Council that we discussed in terms of 
evaluating fees and coming to some common guidelines and 
conclusions.
    The Chairman. One example you give here is that the Bureau 
of Reclamation might want to establish a fee structure. I 
gather that there may be additional Federal agencies that you 
would anticipate this interagency program covering. Could you 
elaborate on that some?
    At the current time, the BLM, the Fish and Wildlife 
Service, the Forest Service, and I guess the Park Service are 
the four agencies that charge fees. Is that correct?
    Ms. Scarlett. Bureau of Reclamation also charges some fees 
for its boating and related facilities at lakes and dams.
    The Chairman. But as part of the creation of an interagency 
program, do you anticipate that additional agencies would be 
given the authority to charge fees?
    Ms. Scarlett. We would like the interagency authority and 
coordination to be among the agencies that you mentioned, but 
also to explicitly include the Bureau of Reclamation and also, 
of course, our partners at the Department of Agriculture, the 
Forest Service.
    The Chairman. All right.
    Let me defer to Senator Thomas for any additional questions 
he has.
    Senator Thomas. Do I understand that what you look forward 
to is sort of a national pass that would cost $50, or whatever 
it costs, and you use it everywhere? Is that kind of like the 
park pass we have now?
    Ms. Scarlett. That is correct. We think that the National 
Park Passport that actually occurred under your leadership has 
been tremendously popular and very successful also in terms of 
some of the implementation of it, some of the efficiencies in 
its implementation.
    One of the things that we learned from our citizenry that 
go to these facilities is that for like facilities--that is, 
for Bureau of Land Management, not open access kinds of lands, 
but for facilities that have that same kind of enhanced 
investment in visitor-serving infrastructure--that they have 
equal access with the pass to all of those facilities. And we 
think for convenience, for clarity, for ease of implementation, 
having a single national interagency pass for like facilities 
would be very attractive to the American public.
    Senator Thomas. There is one area that I think requires a 
little consideration, and that is the gateway private 
facilities. If you use these additional funds to create, for 
instance, camps within the park that have all kinds of 
technical facilities, which we really would like to have people 
use outside the park--I think that needs to be part of the 
planning. Yosemite is one where we are trying now to keep more 
and more activities outside of the park rather than in the 
park. It would be a shame to use this money to create a 
competitive situation that moved people in the park as opposed 
to outside the gateway in certain parks. Does that make sense?
    Ms. Scarlett. I think it does. In fact, we would like to 
explore those opportunities. There have been a couple of 
examples to date in the fee demo program in which we have 
cooperated with local providers of recreation services and 
created a kind of coordinated program or activity, and we would 
be very interested in further exploring those opportunities.
    Senator Thomas. Mr. Chairman, I do not think I have any 
more questions.
    The Chairman. Well, as we move ahead and try to refine this 
legislation and combine our efforts, we will get back in touch 
with you with additional questions. Thank you both very much. I 
think it was a useful hearing.
    [Whereupon, at 10:37 a.m., the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

    [Due to the enormous amount of material received, only a 
representative sample of statements follow. Additional 
documents and statements have been retained in committee 
files.]

                                    Temple City, CA, June 17, 2002.
Senator Jeff Bingaman,
Chair, Senate Energy & Natural Resources Committee, Washington, DC.
    Dear Senator Bingaman: I am vehemently opposed to recreation fees 
for the use of America's public land. I ask you to cancel the 
Recreation Fee Demonstration Program immediately. I also ask that such 
recreation fees on public lands NEVER be made permanent. Our public 
lands, which belong to the People of the United States, should be free 
of user fees, parking fees, and fees for basic access. Public funding, 
which has been systematically and deliberately slashed over the past 
decade, must be FULLY RESTORED to the land management agencies so that 
they can fulfill both on-going and backlogged maintenance.
    Please include this letter in the public record for the hearing on 
June 19, 2002. Thank you.
            Sincerely,
                                               Deborah Y. Nakamoto.
                                 ______
                                 
                                       Crawford, CO, June 18, 2002.
Senator Jeff Bingaman,
Chair, Senate Energy & Natural Resources Committee, Washington, DC.
Subject: Public Comment for the Record, Recreation Fee Hearing

    Dear Senator Bingaman: Senate Bill 2607 seems to have been 
introduced on a FAST-TRACK SCHEDULE TO AVOID PUBLIC SCRUTINY; and, with 
the intent to make Fee Demo permanent.
    While your bill on the surface seems to assure that specific 
activities or areas would not have fees, the entire bill is vague, can 
be broadly interpreted, and has no limit on the number of sites where 
fees can be charged. It is one big loophole. An area or use that does 
not require fees can be redesignated to fall under the category of an 
area that would require fees, such as a national monument, scenic, or 
recreation area. This is likely to happen with land that was once 
freely accessible and now has become part of the newly designated 
national monuments, for example. And, there is nothing to stop an area 
with, say, hiking trails or jeep roads from being developed with some 
amenity, facility, or structure that would then require or allow fees. 
In fact, it appears this is the intent of the bill to allow enormous 
flexibility of government to apply fees when, where, and how it wants 
to.
    As for fee collection, it is stated that public access to areas be 
provided in such a manner that entrance fees could be efficiently 
collected at centralized locations. This would maximize revenue and 
make law enforcement easier. But does this also mean areas might be 
fenced, or roads and trails closed to funnel us through a few 
collection booths? Regarding multiple fees, it is stated that the 
Secretary of Agriculture will, to the extent possible, minimize them. 
So would we still be--not nickeled and dimed to death--but dollared to 
death? Will we see growth in new fees and increasing prices for 
established ones? Probably both.
    It is also stated that recreation use fees may not be charged for 
general access to an area, a visitor center, a scenic overlook, 
drinking fountains, restrooms, or undeveloped parking. But this plan to 
make public lands profit-driven and supposedly self-sustaining means 
infrastructure could be built with tax dollars and then designated as 
an area which would require fees. Is there any doubt that a fee will be 
added when special facilities ``constructed with significant federal 
(read taxpayer) dollars'' are built in an area, when a trailhead 
already exists there or is added, when an entrance fee must be paid to 
get to the `free' visitor center location, when a fee must be paid to 
access roads with `free' scenic overlooks, when fees must be paid for 
access to an area to use the `free' drinking fountains and restrooms 
(such as campgrounds), when fees must be paid for developed parking 
because roads and pull-offs have `no parking' signs? This is already 
going on in some states. It is not my imagination at work.
    Fees can be charged for ``enhanced interpretive programs''. So, if 
you are low-income can you only enjoy and learn from lesser programs? 
There is no mention of the studies that show low-income people can not 
afford the access and use of public land that wealthier people can. 
Access and use should be for all. The USDA April 2002 Interim Report to 
Congress on Fee Demo mentions that some low income citizens may be 
deterred from visiting public lands, but this is not addressed in this 
bill. Obviously these people don't count. For Seniors of various 
incomes, the Golden Age Passport remains protected, yet in the Interim 
Report its future seems in doubt. It is obvious that concerns exist 
that significant revenue will be lost if seniors continue to be allowed 
to a one-time, life-long purchase of a public lands pass. Read that to 
mean that the public is now considered a revenue source for the federal 
government; also, read that to mean increased taxes via the term ``user 
fees.''
    To add insult to injury to all of us, it is stated that ''. . . the 
appropriate secretary shall establish at least one day each year during 
periods of high visitation as a `Fee Free Day' when no entrance fee 
shall be charged.'' So we should be grateful that whatever our incomes, 
work schedules, or family duties, that we get one `free day' out of an 
entire year to access with our families our own tax-supported lands. 
This is outrageous! When fees are being collected, you can volunteer to 
collect them! What a deal. Will those of us who can still afford to 
visit public lands still want to when faced with so many rules, 
regulations, and fees?
    Remember the 80% of fees that were to remain on site? Now a 
reduction to 60% would be permissible. The ``seamless'' payment idea of 
a national fee is contradictory to this proponent. The idea that 
collected monies from a site must be spent in one year, or go into the 
Recreation black hole takes us back to where we are now--spend it or 
lose it.
    Many people suspected some time ago that one goal of recreation 
fees is to have all public lands off budget completely, surviving on 
fees alone. Any attempt to make fees widespread and permanent may be 
just the next step in a series towards that end.
    Your intentions might be one thing; but Senator, you are opening 
the door for future Senators to do as they please. In reality, while 
the Forest Service has claimed that fee money goes back to the land, 
nearly half goes to concessionaires, administration, and enforcement. 
Also, the broad and vague wording leaves the impression that further 
supplemental appropriations from government would not be forthcoming. 
If so, this means higher and new fees would be needed to meet the needs 
of an area. The meaning and intent of this wording and the document as 
a whole is unclear and means we can not be sure what to expect.
    One thing we do know. Congress already has a simple tax collection 
method that has been used for years to provide money for public lands. 
It has done this through World Wars and Depressions, through good and 
bad economic times; but some time ago, in the 1950's, began cutting 
budgets and underfunding public land agencies--diverting these tax 
monies to other uses. Now the cry is heard that there is not enough 
money for public lands. If Congress had acted wisely and responsibly 
over the years, continuing to allocate needed tax dollars to our public 
lands, we would not be facing the ramifications of this new bill.
    Regardless of the various Senate bills' contents, the bottom line 
is that fees are wrong. They discriminate against the poor, keep people 
out of their own lands, their commons, their national heritage, and, 
are just another tax. But don't forget what will follow a permanent fee 
program if this bill passes. The proud corporate backers of Fee Demo, 
The American Recreation Coalition, who dreamed up this idea back in 
1979, can then make their final move in their final profit-driven goal 
to develop, commercialize, and privatize the undeveloped, natural areas 
we treasure. Investments in public lands by for-profit, private 
interests was not allowed nor financially wise under the temporary Fee 
Demo program.
    To emphasize this I would like to end with the following:
    The just concluded Great Outdoors Week, an annual event sponsored 
by the ARC; was just another lobby week put on by a Special interest 
organization to celebrate, praise and further advance an ongoing 
campaign to commercialize and privatize recreational opportunities on 
America's federally-managed Great Outdoors. While ARC's lobbyists were 
entertaining elected officials and public servants in Washington DC, 
with tax exempt funding, the American public was protesting ARC's 
Corporate Takeover of Nature in locations from coast to coast funded 
out of pocket by citizens and without tax benefit.
    In addition the Federal Government appears to be wasting what 
little credibility it retains in posting onto a publicly-financed web 
site a spurious sales pitch for a lobbyists gala event? Why didn't this 
federal web site promote them Citizens' National Day of Action to End 
Forest Fees with the same enthusiasm it showed the ARC. Check it out 
for yourself at http:llwww-recmation.gov/outdoors.afm
    Senator, I do not yet know your reasons for sponsoring your bill, 
S. 2607. I do not know what your hurry is in holding legislative 
hearings with little or no public notice regarding fee demo given that 
this program has been authorized through Sept. 2004. But, as a former 
government public servant: 7 years in the USAF, a public school teacher 
and 9 years with the BLM as a seasonal river ranger, I continue to have 
faith in government and the democratic process. Senator, the fee 
program is wrong. We, citizens, stand to lose far to much and forever, 
if this program continues and evolves in size. We are turning a corner 
in how public lands are funded and managed that will never be regained. 
Think seriously about what this means to us and all future generations 
of Americans. I ask that you do the hard, yet noble, thing and recall 
your bill and end Recreation Fees.
    With respect to you and faith in government,
                                                      Skip Edwards.
                                 ______
                                 
                                       Prospect, OR, June 18, 2002.
Senator Jeff Bingaman,
Chair, Senate Energy and Natural Resources Committee.
Re: Fee Demo Bill--S. 2607

    Dear Senator Bingaman: I hike, backpack and cross-country ski; and 
as a volunteer have logged many hours building and maintaining trails 
in our national forests. Even in the first year of Fee Demo I 
contracted to ``volunteer'' in exchange for a season trail park pass.
    But then I started researching fee demo: Who is promoting and 
supporting it? I find that the Forest Service wants to go into 
partnership with the American Recreation Coalition to privatize our 
public lands. I realize now that by purchasing a trail pass I was 
``demonstrating'' my support for the accelerated industrialization and 
motorization of our national forests.
    Until now there was no way to legally oppose this program. My 
objections are threefold:
          1. The Forest Service would have us think that we need to 
        privatize our forests in order to provide for the maintenance 
        and protection of our natural and undeveloped areas. We cannot 
        protect the integrity of natural areas through privatization. 
        This is not even logical, and I don't want my national forests 
        developed.
          2. It is an insult and an outrage to be asked to pay for a 
        concept that I feel is fundamentally flawed, deceptive and 
        immoral.
          3. The National Forests belong to all Americans. Free access 
        to undeveloped public lands is part of my national heritage. It 
        belongs to my children, my grandchildren and their children.
    We pay taxes that should continue to fund Forest Service recreation 
budgets. Please end the fee demo program so that all Americans can 
enjoy our undeveloped public lands free of charge and excessive 
development.
    Although I am 72 years old I still visit my national forests and I 
feel so strongly about this issue that I will willingly go to jail 
before I will pay to park my car on undeveloped land near a trailhead.
    Please make this letter part of the public record for The Senate 
Energy and Natural Resource Committee's public hearing on Fee Demo on 
June 19th. Thank you for considering this opinion.
            Respectfully,
                                               Jane G. Cox.
                                 ______
                                 
                                           Wild Wilderness,
                                           Bend, OR, June 18, 2002.
Senator Jeff Bingaman,
Chair, Senate Energy and Natural Resources Committee.
Re: Public Opposition to Recreation Fee Demonstration Program

    Dear Senator Bingaman: The appended article from Saturday's 
Spokesman Review (Spokane Washington) was one of the few Day of Action 
articles to quote Derrick Crandall, President of the American 
Recreation Coalition.
    Crandall's comments are important, and so I encourage you to read 
what he has to say. I'd also like to specifically respond to the 
following most-important point and invite you to respond to is as well.
    Quoting from the article:

        Crandall said his group proposes giving free permits to anyone 
        who can prove a financial need or is willing to volunteer for 
        trail maintenance work.

    Recreation fees are discriminatory and exclusionary. These are 
undisputed facts emphasized by each and every one of the 30 groups of 
protesters who participated in Saturday's National Day of Action 
(www.wildwilderness.org). Crandall and the USFS have, in effect, 
acknowledged that these fees are discriminatory when they propose 
creating ``second-class citizens passes'' and when they suggest that 
poor people should be allowed to earn passes by working at sub-minimum, 
virtually-slave, wages.
    If there is a proven need for going to a recreation fee system 
(which there is not!) then the fees should be voluntary such that no 
one must suffer the stigma of having to prove themselves to be poor. 
And if volunteer passes are to be earned, then I hope Mr. Crandall will 
support compensating all volunteers with a ``living wage'' of at least 
$15 per hour in exchange for their labor.
    I find it extraordinary that the USFS and Mr. Crandall believe that 
the current USFS practice of offering a scant handful of ``free days'' 
a year is anything less than grossly elitist--if not outright racist.
    I also find the current USFS practice of compensating 
``volunteers'' at less than minimum wages as detestable. Creating user-
fees which serve as an artificial barrier to poor persons and then 
using these fees as a mechanism for recruiting virtual slave-labor from 
these same excluded-persons, is reprehensible--I advise everyone 
reading this message to be on the sharp lookout for additional 
``Volunteer''-related legislation from ARC and the Bush Administration. 
``Volunteerism,'' as the concept is being abused by these people, is 
NOT to the supported.
    And one last point upon which I'd like to draw attention: What does 
Mr. Crandall mean when he says that his coalition is helping the 
agencies work out the challenges in collecting and distributing money? 
Who empowered ARC to be engaged in this role--and what ever happened to 
Democracy in this country?
    ``Fee-Demo is Un-Democratic''
    That was the theme for this year's Day of Action.
    Mr. Bingaman--on behalf of everyone who protested on Saturday, I 
challenge you to try and prove us wrong I challenge you to explain how 
these ``free days'' and ``volunteer passes'' are solutions worthy of a 
Democratic society.
            Sincerely,
                                              Scott Silver,
                                                Executive Director.
                                 ______
                                 
                            Western Slope No-Fee Coalition,
                                        Norwood, CO, June 18, 2002.
Hon. Jeff Bingaman,
Chair, Senate Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.
    Dear Senator Bingaman: I would like to share with you the serious 
concerns that the Western Slope No-Fee Coalition has with Senate Bill 
2607, or any bill that would make the Recreational Fee Demonstration 
Program (Fee Demo) permanent.
    The Western Slope No-Fee Coalition is a broad-based group 
consisting of motorized recreational interests, environmental groups, 
conservatives and liberals, Republicans and Democrats, elected 
officials and JUST plain citizens. Together we've been working to end 
Fee Demo and encourage those of you in Congress to fund our public 
lands adequately through the regular appropriations process.
    We believe that there are monies already allocated to the 
management agencies that, with reprioritization, can be used to pay 
down the maintenance backlogs in the four agencies and eliminate the 
verb reason for the fees. Appropriated funds should be spent first for 
resource protection, backlogged maintenance and day-to-day management 
before being used for capital improvements. Yet all of the agencies 
continue to build new facilities and infrastructure that only add to 
the maintenance needs in the future.
    American citizens own the public lands and pay for their 
maintenance through our taxes. These same citizens are being denied 
access to their lands unless they are able and willing to pay 
additional taxes in the form of fees. Worse, these fees are creating a 
direct revenue stream to the agencies that bypasses congressional 
oversight and leads to waste, fraud, and abuse.
    We are working with Representative Scott McInnis to insure that a 
GAO audit of the FCC Demo program takes place. We're looking for 
accountability and responsibility from our land stewards. We also 
expect Congress to live up to their responsibility to oversee and 
prioritize spending of our taxes. Without a complete financial review 
of the maintenance backlogs and a review of the fee program as a whole, 
showinghow appropriated funds and Fee Demo funds are being spent, no 
judgment of the program can be complete.
    The American public is clearly and overwhelmingly against making 
this program permanent. Resolutions of opposition have been sent to 
Congress by the state legislatures of Colorado, Oregon, California, and 
New Hampshire. In Colorado alone, nine counties and numerous towns and 
cities have passed similar resolutions condemning the program. Over 240 
organized groups oppose the program, and civil disobedience to it is 
rampant.
    There are substantial funds already available to the land 
management agencies for maintenance and day-to-day management. Fee-
based funding for recreational use is unpopular, inefficient, and 
unnecessary. We oppose Senate Bill 2607 or any bill that would make Fee 
Demo permanent. We call on this committee and all of Congress to let 
the Recreational Fee Demonstration Program expire in 2004. This program 
cannot be ``fixed.'' It is fundamentally wrong.
            Sincerely,
                                         Robert Funkhouser,
                                                         President.
                                 ______
                                 
                                                     June 18, 2002.
Senator Jeff Bingaman,
Chair, Senate Energy & Natural Resources Committee.
    Dear Senator Bingaman: My wife and I strongly oppose the Recreation 
Fee Demo Program. Please do NOT make it permanent. In our opinion, 
there should be no fees for use, access to, or parking on public lands. 
A volunteer program and public funding could be established/increased 
for the maintenance backlog. Please include this letter in the public 
record for the 6.19.02 public hearing. Thank you.
            Yours sincerely,
                                                         Gary Auth.
                                 ______
                                 
                                North Hollywood, CA, June 19, 2002.
Senator Jeff Bingaman,
Chair, Senate Energy & Natural Resources Committee.
    Dear Senator Bingaman: I strongly oppose the Recreation Fee Demo 
Program and am deeply concerned over plans to turn some form of it into 
law. The federal government holds our public lands in trust for all its 
citizens: therefore, recreational access to National Forests should be 
provided for by tax dollars, not by exclusionary user fees. This land 
was bought and paid for by taxes from current and preceding 
generations, to be held inviolate and in trust for future generations.
    The notion of forest rangers as enforcers is antithetical to the 
great outdoors. Last year in Colorado, armed forest rangers driving 
SUV's (paid for by the fee demo) forcibly ``policed'' the fee by 
arresting protesters. Ironically, the protesters are technically exempt 
from the fee because they were not ``recreating.'' This heavy-handed, 
fiefdom mentality is literally a century away from what Teddy Roosevelt 
intended . . . today, we need his vision more than ever.
    I urge Congress to provide adequate (and traditional) funding for 
Forest and Park Service budgets to ensure that there will never be fees 
for access or parking on public lands. Everything from the wilderness 
to the Capitol Mall is our priceless heritage . . . how poor in spirit 
we will be if we charge people who seek to know their county better.
    Please include this letter in the public record for the 6/19/02 
public hearing.
            Yours sincerely,
                                                    David Williams.
                                 ______
                                 
                                      Sandpoint, ID, June 20, 2002.
Senator Bingaman,
Chair, Senate Energy & Natural Resources Committee.
    We are writing you, and thus your committee, to strongly oppose S. 
2607--making the Recreation Fee Demo Program permanent.
    Rather than charging individual users new fees for use of our 
traditionally free lands, public funding should be restored and 
increased for needed maintenance and improvements. Charge us through 
the tax system.
    There should be no fees for non-commercial use of non-commercial 
access to or non-commercial parking on National Forest and BLM public 
lands.
    Please include this letter in the public record for the 6/19/02 
public hearing. Thank you.
            Sincerely,
                                 Steve Lockwood and Molly O'Reilly.
                                 ______
                                 
                                          Norco, CA, June 21, 2002.
Senator Jeff Bingaman,
Energy and Natural Resources Committee, Dirksen Building, Washington, 
        DC.
    Dear Senator: I want these comments included in the record for the 
hearing of June 19, 2002 on recreation fees:
    I stopped recreating in the Lytle Creek area 15 years ago because 
of the lack of security, graffiti on the rocks and trees, and the piles 
of trash that blanketed the canyon floor. I know the Adventure Pass has 
made a difference first hand. I use this area a lot now and feel safe 
because of the constant attention of the Rangers. It would be a shame 
to lose this program.
            Sincerely,
                                                Daniel Edward Kerr.
                                 ______
                                 
                                          Boise, ID, June 21, 2002.
Senator Jeff Bingaman,
Chair, Senate Energy & Natural Resources Committee.
    Dear Senator Bingaman: I strongly oppose the Recreation Fee Demo 
Program and your bill to make it permanent, S. 2607. Please cancel this 
bill and work to terminate this increasingly unpopular program.
    There should be no fees for the use of, access to or parking on 
public lands. Please work with the Appropriations Committees to restore 
accountable public funding for the maintenance of our public lands.
    Please include this letter in the public record for the June 19, 
2002 public hearing. I look forward to your response. Thank you.
            Yours sincerely,
                                                    Larry E. Smith.
                                 ______
                                 
                                       Aseville, NC, June 23, 2002.
Senator Jeff Bingaman,
Chair, Senate Energy & Natural Resources Committee.
    Dear Senator Bingaman: I strongly oppose the Recreation Fee Demo 
Program and your bill to make it permanent, S. 2607. Please cancel this 
bill and work to terminate this increasingly unpopular program.
    There should be no fees for the use of, access to or parking on 
public lands. It is a sneaky form of taxation. Beyond this fact, the 
user fees that have been collected at the Nantahala River and at the 
Upper Ocoee River (Nantahala Forest and Cherokee Forest, respectively) 
have been used to build structures that are not needed, not wanted, and 
hurtful to the environment. They have made massive parking lots, which 
means more pollution in the rivers that I boat on--from cars (motor 
oils and anti-freeze wash into the rivers from the parking lots after 
it rains). They have made put ins and take outs on the rivers that are 
not user-friendly, or needed. I split the stern of my kayak on the put 
in on the Upper Ocoee. The Nantahala have a take-out that is across the 
river from the change rooms and parking lots. It also looks like a bomb 
shelter without a door. They have built expensive pit restrooms and 
changing rooms that, in my opinion (I go there a lot) are not needed.
    I see user fees as being another form of taxation: and the fact 
that these taxes are used so wastefully disgusts me. Our nation needs 
to focus on what is important and necessary, not on how the US Forest 
Service can promote businesses and build, and build, (and build!) in 
our national forests. We need to spend our tax dollars on fighting 
terrorism and providing health care to our children, for example. Not 
on unneeded parking lots and changing rooms in the middle of nowhere. 
Or building cement put ins on our rivers that damage boats.
    Please include this letter in the public record for the June 19, 
2002 public hearing. I look forward to your response. Thank you.
            Sincerely,
                                                      Susan Oehler.
                                 ______
                                 
                                       New York, NY, June 24, 2002.
Senator Jeff Bingaman,
Senate Energy & Natural Resources Committee.
    Dear Senator Bingaman: I strongly oppose the Recreation Fee Demo 
Program and your bill to make it permanent, S. 2607. Please cancel this 
bill and work to terminate this increasingly unpopular program. There 
should be no fees for the use of, access to or parking on public lands. 
Please work with the Appropriations Committees to restore accountable 
public funding for the reasonable and respectful maintenance of our 
public lands. Please include this letter in the public record for the 
June 19, 2002 public hearing. I look forward to your response.
    Thank you.
            Sincerely,
                                                       Alan Zdinak.
                                 ______
                                 
                                               Sierra Club,
                                     Washington, DC, July 25, 2002.

    Dear Senator Bingaman: On behalf of Sierra Club's more than 700,000 
members, I am writing to express serious concerns with S. 2607, the 
Federal Lands Recreation Fee Authority Act. While we appreciate your 
efforts to remove controversial components of the Recreation Fee 
Demonstration Program, we feel this legislation will continue to 
encourage the proliferation of fees on our public lands. This 
legislation authorizes new fees to be charged at areas that are 
currently open and free.
    Sierra Club opposes the Recreation Fee Demonstration Program and is 
working to end the program. Americans have a long tradition of enjoying 
our public lands as special places to hike, hunt camp and fish. Basic 
access to our nation's public forests, rivers and deserts is not a 
commodity to be manipulated as a means of generating revenue. Congress 
should fully fund our public lands through the appropriations process 
instead of looking at new ways to charge visitors fees. Sierra Club 
works to ensure that our land management agencies receive all of the 
funding they need to protect and restore our public lands.
    Sierra Club opposes user fees for the following 5 reasons.

  <bullet> Americans already own and pay for the professional 
        management of our public lands, we should have free and equal 
        access to them. We pay taxes every April 15th to support the 
        federal management of our public lands.
  <bullet> It is unjust for Congress to continue to subsidize 
        industries that damage our public lands and waters while 
        charging families to visit these lands.
  <bullet> There is evidence that the requirement to pay on-site access 
        falls especially heavily on those least able to pay. (More, 
        Thomas & Stevens, Thomas. (2000) Do User Fees Exclude Low-
        income People from Resource-based Recreation Journal of Leisure 
        Research. Volume 32, No. 3 pp 341-357.)
  <bullet> This program could create an economic dependence on 
        motorized recreation and excessive commercial development of 
        public lands.
  <bullet> If the public lands become even more dependent on user fees, 
        they may lose the federal funding needed to maintain and 
        protect these lands.

    While we recognize that you attempted to address some of these 
issues in your legislation, this bill fails to assure that 
inappropriate fees will not continue to be charged for visitors to our 
public lands. Broad language and lack of definitions in the bill could 
allow land managers the discretion to set up unlimited fee collection 
sites on our public lands. While the legislation attempts to steer fee 
collection sites to developed facilities, language still allows 
additional fee collection at undeveloped areas on National Forest and 
Bureau of Land Management land.
    We are particularly concerned about the impact of this legislation 
on dispersed recreation sites such as National Forests, National 
Monuments and BLM land. Since the Recreation Fee Demonstration Program 
was created, it has been met with broad and increasing opposition 
especially when fees have been imposed merely for hiking on National 
Forest land. For example, the Forest Service's Red Rock Pass in Arizona 
and the Adventure Pass in Southern California have both created 
significant opposition in surrounding communities, general confusion 
about fee structures and the perception that the fees are unfriendly to 
tourists and local communities. S. 2607 could allow these controversial 
and unpopular fees to continue indefinitely and does not place any 
restrictions on the number of new sites. This could allow for 
unprecedented expansion of new fee sites.
    In addition, the legislation says fees may be charged for ``an 
activity where a permit is required to ensure resource protection or 
public safety.'' This language could also be broadly interpreted to 
mean almost any visit to our public lands. Although a valid concern 
public safety should not be used as a loophole to justify fees for 
hiking, canoe launches and similar sites.
    While the intention of the bill appears to be to keep user fees on 
site for maintenance, the language allows broad discretion to use fees 
for ``facility enhancement.'' Including prohibitions on fee use for 
development such as the proliferation of fee parking sites and the 
creation of damaging, revenue driven recreation attractions such as 
off-road vehicle trails and mechanized ski-lifts is crucial. Our 
concern is that fee programs will create incentives for land managers 
to develop new facilities in order to qualify to set up new fee 
collection sites and use the revenue to expand recreation sites. Our 
land managers should be focusing on protecting the land, not creating 
attractions to bring in revenue for their site.
    The lack of definitions creates other problems in the legislation 
and could allow for broad interpretation of the bill. The bill does not 
provide an explanation of the meaning of the terms ``use fee,'' 
``fee,'' ``entrance fee,'' and ``permit fee''. It would appear that an 
entrance fee could be charged in order to reach an area where fees are 
restricted such as a scenic overlook or visitors center. The terms 
``major recreation attraction'' and ``recreation purposes'' are also 
not defined.
    The Recreation Fee Demonstration Program was originally put in 
place as a rider and has never received appropriate debate and public 
hearings. While last Wednesday's hearing was a good first step, we 
would prefer the committee not move legislation without first hearing 
from the public, conducting field hearings and fully reviewing all the 
comments. The fast timeline that this bill is moving on will not allow 
necessary review.
    We look forward to working with you to fully fund our public lands 
without resorting to inappropriate and prohibitive user fees.
            Sincerely,
                                              Debbie Sease,
                                              Legislative Director.
                                 ______
                                 
                                 Corona del Mar, CA, June 25, 2002.
Senator Jeff Bingaman,
Chair, Senate Energy & Natural Resources Committee.
    Dear Senator Bingaman: I want to let you know of my opposition to 
the continuation of the Recreational Fee Demo program. While I have 
abided by the program and purchased a tag, I do not believe it is right 
to continue the program or make it permanent.This is public land and it 
should be open for reasonable public use. I can see no direct 
correlation to a fee program and direct improvement in any single 
forest or national recreation area. The program's administrative 
expenses are exorbitant and with Government accounting, very little 
money ever gets back to where it was raised.
    Public funding should be raised for projects that directly improve 
these facilities and not more personnel or endless fleets of new 
vehicles.
    Please include this faxed letter in the public record for the June 
19, 2002 public hearings.
            Sincerely,
                                    Donald R. and Susan R. Lawrenz.
                                 ______
                                 
                                                     June 25, 2002.
Senator Jeff Bingaman,
Chair, Senate Energy & Natural Resources Committee.
    Dear Senator Bingaman: We strongly oppose the Recreation Fee Demo 
Program--called in our area the ``Adventure Pass.'' This program should 
NOT be made permanent. Rather, the Congress needs to allocate the funds 
necessary to manage our National Forests adequately. Our local Los 
Padres National Forest area has gone from over 20 employees 10 years 
ago to less than 10 employees. There is no-fee in the world that can 
possibly make up for such a drastic reduction in congressional budget 
allocation.
    Public funding should be increased to provide for maintenance and 
personnel in our National Forests which are held in trust by all of us 
for future generations. This is not a matter of users and nonusers but 
a matter of stewardship for the future of the United States of America.
    Please include this letter in the public record for the 6.19.02 
public hearing.
    Sincerely,
                                           Laura and Stuart Wilson.
                                 ______
                                 
                             Greater Yellowstone Coalition,
                                        Bozeman, MT, June 26, 2002.
Senator Jeff Bingaman,
Chair, Senate Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.
    Dear Senator Bingaman: On behalf of the Greater Yellowstone 
Coalition (GYC) and our 12,500 members nationwide, I offer these 
comments on S. 2607, the Federal Lands Recreation Fee Authority Act, 
which would make permanent the recreation fee demonstration program.
    GYC has a long history of advocating for conservation of the 
natural resources in the Greater Yellowstone Ecosystem. Our mission is 
to preserve and protect the Greater Yellowstone Ecosystem and the full 
range of its life, now and for future generations. Many of our members 
have deep concerns about this fee program and its possible permanency.
    Congressional budget cuts are creating a management crisis for 
federal land management agencies. On its surface, fee demonstration 
sounds reasonable in light of ever-shrinking budget allocations for our 
national parks, forests, and other recreational areas. As more people 
visit and recreate on our publicly-owned lands, more pressures are 
being placed upon those lands. The budgets of our publicly-owned lands 
must be adequate to counter these pressures.
    As a first and critical step, adequate funding must be provided by 
Congress for the protection, conservation, and restoration of these 
lands. Funding should be additive and for resource protection (i.e., 
not for construction of additional restroom facilities or boat 
launches), and not substitutive for existing budgets. The fee 
demonstration program has created perverse incentives by encouraging 
more development and additional visitor services for sites and 
activities that generate more revenues.
    Private/public ventures should be minimized, regulated, and 
consistent with the public mandate to protect and preserve publicly-
owned lands.
    General access to public lands, such as Forest Service and Bureau 
of Land Management lands, should be without cost to users. Reasonable 
fees for access to national parks and wildlife refuges (those sites 
where access fees have historically been charged) may be appropriate, 
so long as such fees are applied toward protection, conservation, and 
restoration of natural resources. Where permits are necessary to 
regulate visitor use to protect sensitive resources (i.e., wilderness 
areas and river corridors), a nominal fee associated with 
administration of the permit system could be allowed.
    Rigorous and unambiguous criteria for the use of fees should be 
developed. Fees should not create economic barriers to use. And, most 
importantly, fees should in no way create economic incentives for 
increased development, commercialization or privatization of public 
resources.
    The proposed Federal Lands Recreation Fee Authority Act is not 
consistent with these principles. Until such time as a process is in 
place to thoroughly assess this program, it should not be made 
permanent.
    We appreciate this opportunity to comment.
            With regards,
                                          Melissa D. Frost,
                                            Conservation Organizer.
                                 ______
                                 
                  The Senate of the State of New Hampshire,
                                        Concord, NH, June 26, 2002.
Senator Jeff Bingaman,
Chair, Senate Energy & Natural Resources Committee.
    Dear Senator Bingaman: I write to express the strong opposition of 
myself and the New Hampshire State Legislature to the Recreation Fee 
Demonstration Program in the National Forests that you apparently are 
proposing to make permanent in SB 607.
    On April 25th of this year the New Hampshire General Court passed 
House Concurrent Resolution 23 (HCR 23) calling upon Congress to 
abolish the Recreational Fee Demonstration Program. I have enclosed a 
copy of that resolution, which was passed unanimously in our State 
Senate (23-0) and with overwhelming bipartisan support in our House on 
a voice vote.
    One strong objections that stands out for me is the fact that 
Congress consistently fails to fully fund payments in lieu of taxes to 
counties and municipalities in which the White Mountains National 
Forest is located. These counties and towns provide emergency and other 
services to and within the National Forest without full reimbursement, 
often with the use of many local volunteers and yet the taxpaying 
citizens of this state have to make up the difference through our state 
and local taxes and then they are also asked again to pay a fee to park 
their cars to be able to access our public lands in the National 
Forest. This also discourages all of the volunteers who help maintain 
trails.
    Instead of giving tax cuts to the rich why doesn't Congress 
adequately fund the National Forests and make full payment to 
localities of authorized payments in lieu of taxes to support local 
services?
    Thank you for your attention to this matter.
            Yours truly,
                                                  Clifton C. Below.
                                 ______
                                 
                                          The Mountaineers,
                                        Seattle, WA, June 26, 2002.
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee, Washington, 
        DC.
Re: Comments on S. 2607 ``Federal Lands Recreation Fee Authority Act''

    Dear Members: We submit these comments for the Congressional 
Record.
    The Mountaineers, with nearly 15,000 members, is the largest 
outdoor muscle power recreation and conservation club in the Pacific 
Northwest and the third largest in the nation. As a recreation club we 
sponsor about 5,000 trips a year. The vast majority of these trips are 
to destinations in the federal Wildernesses and backcountry here in 
Washington State. We are very concerned with access to, maintenance of, 
and safety in these public lands.
    We are very pleased that you have brought the issue of recreational 
user fees before the committee for review. This offers the opportunity 
to evaluate and debate the merits. Since 1996 the Mountaineers has been 
very actively involved evaluating and commenting on the Users Fee 
Demonstration Program (Fee Demo). We have worked closely with Region 6 
of the Forest Service and in particular here locally with the Mount 
Baker Snoqualmie National Forest. We have also worked with the National 
Park Service, especially Mount Rainier National Park. We believe that 
our enduring involvement gives us valuable insight into many aspects of 
recreational user fees.
    The Mountaineers offer these general comments on S. 2607:
    Fees collected should not be a budgetary offset for inadequate 
congressional appropriations. The fees must be a supplement used to 
address the vast backlog of deferred maintenance. For example, the 
Mount Baker Snoqualmie National Forest serving the Seattle metropolitan 
area's three million citizens, has a backlog of 10 million dollars of 
deferred maintenance on 1,500 miles of trails.
    The fees should not be used for the construction of new 
infrastructure; those costs should only be authorized by 
appropriations.
    The fees should be broad based and equitable. Discrete user groups 
should not be targeted for fees simply because they are easily 
identified.
    Broad area, national and regional, passes are a necessity. Here in 
the Pacific Northwest, Region 6 of the Forest Service is selling a NW 
Forest Pass, valid at all Region 6 forests. Addition of National Parks 
to these wide area passes would be an improvement. Duplicate passes for 
individual forest would be costly, redundant and overly burdensome to 
the ``frequent user.''
    Fees must not be used to restrict access to public lands. If there 
are valid reasons to limit visitation (ecological restoration, etc.) 
they should be handled separately.
    The bill should include strong guidelines for public involvement 
regarding fee structures and most particularly with decisions on how 
generated funds will be spent. Also, public oversight at the local 
level, by those users who paid the fees, is a necessity to account for 
expenditures.
    The Mountaineers is concerned with the heavy emphasis both in S. 
2607 and the Forest Services ``Blueprint'' on front country 
infrastructure, visitor's centers, developed parking lots, etc. The 
backcountry trails and campsites are heavily used and greatly in need 
of maintenance to preserve and protect them, the environment, and to 
provide a safe experience for the using public. There needs to be more 
balance in S. 2607, recognizing the needs in the ``undeveloped.'' 
backcountry.
    One of the positive developments of Fee Demo has been a greatly 
increased commitment of volunteer stewardship, that is, trail 
maintenance work parties. By contributing sweat equity, not only do 
these volunteers improve and repair trails at very low cost, but they 
also earn credit toward passes. S. 2607 should address this directly 
and encourage volunteer participation by a program of recognition and 
rewards. The Mountaineers believe that an annual pass for two days, or 
ten hours, of labor is appropriate and reasonable.
    The Mountaineers has the following comment on a specific section of 
S. 2607:
    Sec. 2, sub section (d) RECREATION USE FEES, sub paragraph (2) 
cites (D) a managed parking lot for which fees may be charged, while 
sub paragraph (3) cites (A) general access to an area and (F) 
undeveloped parking as items for which recreation use fees may not be 
charged. As Fee Demo has developed in the Pacific NW, ``undeveloped'' 
parking lots at trailheads are the points of general access to an area 
for which fees have been charged. Who will determine the difference 
between developed and undeveloped parking? And what exactly is general 
access? Do trails and pit toilets constitute a developed facility? This 
language is too vague and wide open to multiple interpretations and 
misinterpretations.
    Once again thank you for reviewing the issue of recreation user 
fees. The issue was entirely inappropriate in the appropriations 
process. The Fee Demo program has generated a great deal of data on the 
collection, administration and spending of user fees. Any legislation 
on recreational user fees should take full advantage of the experience 
gained with Fee Demo by doing a full evaluation of the successes and 
failures of that program. As any program of recreational user fees will 
impact a wide range and great number of users of our public lands, we 
encourage Congress to provide ample opportunity for public input and 
debate.
    Thank you for this opportunity to comment on S. 2607.
            Sincerely,
                                               Glenn Eades,
                                                         President.
                                 ______
                                 
                                        Durango, CO, June 26, 2002.
Senator Jeff Bingaman,
U.S. Senate, Washington, DC.
    Re: Senate Bill 2607 to make the Fee Demonstration Program 
permanent

    Dear Sir: I have studied this bill thoroughly as well as kept 
myself well informed regarding the Fee Demo. Program since it's 
inception. As President of Seniors Outdoors!, a very active club of 430 
members, we use the trails and parks for recreation at least three 
times a week year round. I also belong to 4 Corners Backcountry 
Horsemen, Trails 2000, and San Juan Mountain Association. All of these 
organizations voluntarily build, repair and maintain trails as do 
hundreds of other organizations.
    Trail-users are generally very responsible in their use of natural 
resources. Many of us use the outdoors for free recreation since we 
can't afford and don't like commercial encroachment into pristine 
natural environments.
    Please, put a permanent STOP to the FEE DEMO PROGRAM. Return taxes 
to funding the FS, BLM and DOW and give your generous support to FREE 
PUBLIC LANDS. Charging fees for the use of public land is unethical and 
excludes the poor from an important resource for their enjoyment. There 
are better ways to maintain these lands and plenty of volunteers are 
available. Come observe what Durango is doing; see the real story of 
ways to ``Share the Trails'', ``Leave No Trace'' ``Colo. Trail Work 
Projects'' etc. etc. THERE ARE BETTER WAYS TO KEEP OUR LANDS FREE!!!
            Sincerely,
                                                      Dell Manners.
                                 ______
                                 
                                    Chino Hills, CA, June 27, 2002.
Senator Jeff Bingaman,
Energy and Natural Resources Committee, Dirksen Bldg., Washington, DC.
    Dear Senator: I am treasurer and secretary of The Angeles Volunteer 
Association, a non-profit organization dedicated to the preservation 
and care of the Angeles National Forest. Our volunteers assist the 
Forest Service in the care and maintenance of our National Forest. AVA 
is also a vendor of the Adventure Passes.
    The Adventure Pass program increased dramatically the numbers of 
forest visitors whom we contacted. We were much better able to explain 
not only the Adventure Pass program but also forest regulations and 
precautions to make the visit for everybody more enjoyable. Most of the 
time we hear positive comments for the Adventure Pass program 
especially as most of the money is used to improve the local National 
Forest.
    One other advantage of the Adventure Pass program is the reduction 
of gangs in the forest and less gravity and trash. Before the 
introduction of the Adventure Pass program our trails and environment 
suffered from thoughtless destruction by gang or gang related people. 
Now most trails are clean and it is save to hike again. You can enjoy 
nature at its best.
    As a non-profit volunteer organization we are always strapped for 
funds. Being a vendor of the Adventure Passes gave us income that we 
use to improve the environment and to advance the education of the 
forest visitors.
    I have seen many improvements in the Angeles National Forest which 
were only possible through the Adventure Pass program as Congress does 
not dedicate enough funds to enable the Forest Service to provide 
adequate services. We have more patrols in the Forest by Forest Service 
employees, we have improved trailheads with paved parking lots, 
restrooms, bear proof trash containers and much more. All these 
advancements were financed with money from the Adventure Pass program.
    I fully support the Adventure Pass program as a Forest Service 
volunteer and a private citizen. Please, continue the program 
permanently.
    I want this statement in the record for the hearing of June 19, 
2002 on recreation fees.
            Sincerely,
                                                       Dorit Quaas.
                                 ______
                                 
                                        Ontario, CA, June 27, 2002.
Senator Jeff Bingaman,
Energy and Natural Resources Committee, Dirksen Building, Washington, 
        DC.
    Dear Senator Bingaman: I am writing in support the U.S. Forest 
Service's Adventure Pass. In our local mountains (San Bernardino 
National Forest) it is revenue derived from the sales of the Passes has 
been used to assist with maintenance of picnic areas by providing trash 
receptacles, portable restrooms, picnic tables and other items.
    It is also used to help regulate the numbers of people who use our 
public Forest areas. This hot very, very dry Southern California summer 
will be especially important as our local forests are in grave danger 
of wild fires that can cause destruction, injury and in extreme 
circumstances death.
    I want these comments included in the record for the hearing of 
June 19, 2002 on recreation fees.
            Thank you,
                                                    Margaret Stamm.
                                 ______
                                 
                                     Twin Falls, ID, June 25, 2002.
Senator Jeff Bingaman,
Chair, Senate Energy & Natural Resources Committee.
    Dear Senator Bingaman: I strongly oppose the Recreation Fee Demo 
Program and your bill to make it permanent, S. 2607. Please cancel this 
bill and work to terminate this increasingly unpopular program.
    There should be no fees for the use of, access to or parking on 
public lands. Please work with the Appropriations Committees to restore 
accountable public funding for the maintenance of our public lands.
    Please include this letter in the public record for the June 19, 
2002 public hearing. I look forward to your response. Thank you.
            Yours sincerely,
                                               Christopher R. Yost.
                                 ______
                                 
                                    Free Our Forests--Ojai,
                                           Ojai, CA, June 17, 2002.
Senator Jeff Bingaman,
Chairman, Senate Energy & Natural Resources Committee, Dirksen Bldg., 
        Washington, DC.
Re: S. 2607, Federal Lands Fee Authority
    Dear Senator Bingaman: Thank you for your efforts on this bill. To 
roam freely on our public lands is a treasure that needs guarding for 
future generations.
    Many don't mind a fee for services offered, however, we do need to 
adequately fund these lands, and our tax dollars should be the source.
    Our Region 5 Forest Service has had their budget cut by about 45% 
in 21 years, this translates to about 69% manpower, with an ever 
increasing population usage upon these lands. Please provide the proper 
tax dollar funding badly needed.
    We want our Forest Service to protect our heritage and not use 
private concessionaires. Return the dignity of these lands to its 
rightful stewards.
    Thank you again,
P.S. ``For every dollar that is paid in Federal taxes, only .00018 of a 
penny is spent on recreation, heritage and wilderness programs, on 
Forest Service lands.'' (U.S.F.S., 1998 document)
                                               Heidi Mauer,
                                                          Chairman.
                                 ______
                                 
    Statement of Andrew O. Moore, Vice President, Public and Global 
    Affairs, National Association of Service and Conservation Corps
    The National Association of Service and Conservation Corps, a 
membership organization of state and local youth corps that 
collectively engage 23,000 young adults in conservation service 
nationwide, appreciates the opportunity to submit brief written 
testimony on S. 2473 and S. 2607 for the hearing record.
    The National Association of Service and Conservation Corps (NASCC) 
supports permanent authorization of a Recreation Fee program to reduce 
the maintenance and restoration backlog on Federal lands and 
facilities, and to engage qualified youth conservation and service 
corps to complete projects. To these ends, NASCC recommends:

  <bullet> Congress should encourage each collecting agency or bureau 
        to allocate 10% of Recreation Fee collections for partnership 
        projects with state, local, and non-profit youth corps in a 
        manner consistent with the Public Lands Corps Act of 1993.
  <bullet> Recreation Fee legislation should ensure--as Senator 
        Bingaman and Administration witness stated at the hearing--that 
        the application of fees takes place in a manner that is 
        consistent and equitable, and that continues to encourage and 
        allow all Americans and international visitors to enjoy our 
        nation's public lands.

    The National Park Service already effectively uses Recreation Fees 
to engage youth in reducing the maintenance backlog with its Public 
Land Corps (PLC) program. Since 1999, PLC has directed a total of $14 
million to local partnership projects involving youth corps or other 
youth groups and the Park Service. To date, two National Park Service 
Directors have utilized PLC for 916 projects on over 150 parks and 
monuments. Youth corps affiliated with NASCC have carried out 40% of 
these projects.
    Region 6 of the Forest Service also recently demonstrated its 
strong commitment to involving youth in Fee Demo-funded projects by 
increasing the percentage of Recreation Fees dedicated to youth groups 
from 17% to 22%. In 2001, $500,000 of the $3 million generated by the 
Northwest Forest Pass went to youth corps such as EarthCorps, Student 
Conservation Association, and Northwest Youth Corps, This year Region 6 
plans to underwrite $650,000 in partnerships with youth employment 
programs.
    Linking a portion of Recreation Fees to youth program partnership 
projects offers multiple advantages to the federal land agencies. These 
include:

  <bullet> Youth corps complete labor-intensive backlog maintenance 
        projects early or on time, at or under budget, and to exacting 
        Federal specifications.
  <bullet> Youth corps typically provide up to 25% matching funds for 
        projects.
  <bullet> Providing youth corps participants from communities near 
        forests, parks, and wildlife refuges with paid employment keeps 
        wages and spending in local communities and helps train the 
        next generation of conservation stewards.
  <bullet> Partnerships with corps permit Federal agencies to reach out 
        effectively to those who historically have not been frequent 
        users of public lands.
  <bullet> Many corps members come from disadvantaged backgrounds or 
        are people of color.
  <bullet> Recreation Fees can provide an ongoing source of support 
        that helps make corps more sustainable, and operations more 
        predictable.
                                 ______
                                 
 Statement of Jennifer Lamb, Public Policy Director, National Outdoor 
                           Leadership School
    Mr. Chairman and members of the committee, thank you for the 
opportunity to submit this statement to the Committee on Energy and 
Natural Resources regarding the collection of recreation fees on 
federal lands. We ask that this statement be included in the official 
record of the hearing on June 19, 2002.
    The National Outdoor Leadership School (NOLS) is a non-profit 
organization that teaches outdoor skills, leadership and ethics to more 
than 8,800 students each year. Founded in 1965 and headquartered in 
Lander, Wyoming, NOLS employs more than 800 instructors and staff at 
nine branches and two professional institutes worldwide. Our annual 
revenues exceed $19 million. NOLS' mission is to be the leading source 
and teacher of wilderness skills and leadership that serve people and 
the environment.
    From our five U.S. branches, NOLS is a permitted commercial 
operator in 19 National Parks, 23 National Forests, three National 
Wildlife Refuges and 20 Bureau of Land Management areas in nine western 
states. The core of our educational programs includes extended 
backcountry expeditions of 28 to 93 days in length--our instructors and 
students spend significant amounts of time on public land. Our 
management staff has considerable experience working with permitting 
and fee operations of each of the four Federal land management 
agencies. In 2001, NOLS spent roughly $200,000 on permit fees to 
operate on federal land in the U.S.
    In addition to being an accountable and responsive commercial 
operator, NOLS has been an active participant in the recreation fee 
demonstration program since its inception in 1996. We have provided 
verbal and written testimony at congressional hearings and worked with 
the agencies to identify both the positive and negative elements of the 
fee experiment. ``On the ground'', NOLS has experienced first hand both 
the positive aspects of the program--many critical maintenance projects 
that would otherwise remain on a backlog list have been funded to 
completion--and the pitfalls of a loosely structured experiment--many 
fees are inconsistent, complex, expensive and inconvenient for 
visitors.
    This letter addresses the following topics:
    Specific comments on the two bills currently being considered by 
the committee, five key principles that NOLS believes are critical to a 
permanent fee program, and general considerations regarding recreation 
fee policy.
1. Recreation Fee Bills Under Consideration
    NOLS believes that the bills introduced by Senator Bingaman (S. 
2607, the Federal Lands Recreation Fee Authority Act) and by Senator 
Thomas (S. 2473, the Recreational Fee Authority Act of 2002) offer a 
promising starting point for recreation fee collection. However, both 
bills need further definition and clarification in a number of critical 
ways outlined below.
            What We Like About the Bills
    NOLS will support a reasonable permanent fee program that applies 
to all four of the Federal land management agencies. We realize that 
the National Park Service, with its already established entrance fee 
collection system, is in a better position to implement an efficient 
collection program. However, a significant portion of the nation's 
outdoor recreationists visit lands managed by the Forest Service and 
the Bureau of Land Management (BLM). These two agencies need 
considerable support in managing recreation impacts. The Forest Service 
alone manages 133,000 miles of trail, while the BLM, the National Park 
Service and the Fish and Wildlife Service are responsible for 16,500, 
13,000 and 1,500 miles respectively.
    It is reasonable for visitors to pay limited fees for access to 
developed recreation sites. We approve of both bills' attempts to focus 
fee collection on those sites where recreation impacts are greatest. 
That said, we have concerns about the inadequacy of funding for 
backcountry areas that we will address later in this letter.
            What Needs To Be Improved or Clarified

  <bullet> Definitions: Both bills use many qualifiers, such as 
        ``major'' recreation attraction, ``efficiently'' collected, and 
        ``substantial'' Federal investment to define sites at which 
        fees are appropriate. Realizing that it was an experiment, a 
        large part of the problem with the fee demonstration program 
        resulted from the inconsistency with which fees were applied. 
        Unless specific guidance is provided regarding when fees are 
        appropriate, NOLS fears that a permanent program will be 
        fraught with the same inconsistency experienced with the 
        demonstration.
  <bullet> ``Layering'' of fees: Both bills offer language to 
        ``minimize multiple fees within specific units or areas.'' 
        (Section 2c(3)). We favor stronger language that seeks to 
        prevent the collection of multiple or layered fees. As the 
        demonstration program has shown, a fee program that allows 
        layering of charges will receive strong criticism from both the 
        general public and commercial operators.
  <bullet> Section 2(e) of Senator Bingaman's bill identifies a 
        ``Special Recreation Permit Fee.'' Will this fee be in addition 
        to or take the place of existing fees for commercial permits 
        such as the Forest Service's Special Use Permit or the Park 
        Service's Incidental Business Permit? Will commercial 
        outfitters pay more than one fee for each permit?
  <bullet> In Section 2(b), Prohibition of Fees in the Bingaman bill, 
        what defines a ``bona fide educational institution?'' Does this 
        include educational organizations such as NOLS with 501(c)(3) 
        status?
  <bullet> Distribution of revenue: In an attempt to simplify the 
        collection process, both bills suggest that fees may be 
        collected under a national pass system. While we understand 
        that a pass system has been recommended in the interest of 
        collection efficiency and ease of use, we are concerned that 
        fee revenue will not be appropriately distributed to the areas 
        of greatest need.
  <bullet> Will critical projects that currently enjoy the support of 
        fee demonstration revenue continue to be funded through other 
        sources if they are not covered under a new permanent program? 
        We believe this question warrants thorough consideration to 
        prevent further deterioration of backcountry resources, and we 
        present more detail in section three of this letter.
2. Fee Principles
    NOLS believes the following principles should guide the development 
of a national recreation fee program.

  <bullet> Appropriation: Federal appropriations should fully fund 
        proper care and management of our public lands. Given that this 
        is unlikely in the near future, we believe that a recreation 
        fee collection program should provide an increased revenue 
        stream to supplement but not supplant appropriations for public 
        land management. As many other outdoor recreation and 
        conservation organizations have expressed publicly, NOLS would 
        not support a fee program that represents a substitute for 
        congressional appropriations.
  <bullet> Limitation: The use of recreation fees should be limited to 
        essential site maintenance and improvements that directly 
        benefit recreational visitors. Fee revenue should not be 
        applied to other public lands management needs.
  <bullet> Simplification and Efficiency: NOLS operates in many 
        different public land areas across the west. As a result, we 
        have experienced a broad variety of fee scenarios. We comply 
        with all of them, though the complexity and incremental expense 
        of some is alarming. In some cases, we pay a commercial 
        franchise or permit fee (usually a percentage of gross 
        revenue), and then a series of fees related to the activity; 
        for example, an entrance fee, a backcountry fee, or a per 
        person/per day visitor or river-travel fee--all for one student 
        course.

    Scenarios such as this raise questions about the efficiency of the 
system. With so many different collection efforts, how much of this 
revenue actually makes it to the ground where it will provide benefit 
to the resource?
    Given the opportunity to re-design a fee program, NOLS strongly 
recommends the elimination of this kind of layering of fees. NOLS also 
urges that fees be consistent and reasonable across agencies and across 
different units within the same agency. We recommend that the Congress 
consider placing a cap on the total dollar amount that a commercial 
operator may pay in fees.

  <bullet> Fees should remain with the resource where collected: The 
        primary purpose of a recreation fee program is to generate 
        funds for maintaining the quality of the natural resource that 
        supports recreation. The original premise behind the fee 
        demonstration program--and the aspect of the program that is 
        most readily accepted by fee payers--is the concept that fee 
        revenue will be applied to the site where it is collected. 
        Visitors will see and experience the benefits of their 
        contribution. NOLS supports a fee system that keeps revenues in 
        the agencies and units that generate them.

    In both of the bills being considered, however, there is a strong 
emphasis on the use of a national pass system. While such a system may 
be the only way to make recreation fees palatable and feasible for the 
public, it blurs the original intent--apply the fees where you charge 
them. We encourage the committee to carefully consider the merits and 
the potential pitfalls of a national pass in this context.

  <bullet> Retention: As a permittee on national forests throughout the 
        west, NOLS strongly encourages Congress to consider allowing 
        the Forest Service--as it does the Park Service and the BLM--to 
        retain fees collected from commercial outfitters and guides. 
        This shift would provide the agency with access to an existing 
        source of revenue from which the other two agencies already 
        benefit.
3. Policy Considerations
            Funding for Backcountry and Wilderness Areas
    There seems to be a general opinion--and the bills being considered 
reflect--that the public should not be charged for visiting dispersed 
backcountry areas on public land. However, these areas need additional 
funding--it costs money to manage wilderness. NOLS, Outward Bound, and 
commercial outfitters and guides have for many years paid fees to visit 
backcountry and wilderness areas. More and more frequently, we learn 
from local land managers that they don't have the funding or the staff 
to complete basic resource management tasks. Often, they lack the 
resources to take advantage of our offers to provide volunteer 
assistance--they cannot provide staff time even to coordinate an effort 
that will leverage volunteer resources.
    If a recreation fee program is designed solely to fund front-
country highly developed recreation areas, Congress must carefully 
consider methods to distribute funds to all areas of need, or develop 
alternative ways to properly support backcountry and wilderness lands. 
Some ideas are presented in the section that follows.
            The Fee Demonstration--Apply What Has Worked
    While the fee demonstration program evoked sharp criticism from 
some corners and solid support from others, some good came out of it 
and some very positive lessons were learned. We encourage Congress and 
the agencies not to throw out the entire program and start again, but 
to incorporate the positive elements of the demonstration. Why else 
perform an experiment?
    Most important of these elements is the development of effective 
partnerships between public and private entities that were created to 
leverage volunteers and dollars to perform critical projects on public 
lands. For example, on one Forest Service District in the pacific 
northwest in 2000, Northwest Forest Pass revenue--Fee Demo dollars--
allowed the agency to clear 788 miles of trail and establish agreements 
with five non-profit organizations that performed work on the Forest 
valued at $614,000. With revenue from the fee program available as a 
match, the Forest successfully competed for state funds through the 
National Recreation Trails Program, bringing in an additional $100,000 
for maintenance.
    There are numerous examples in which fee demonstration revenue 
enables the completion of annual maintenance projects through the 
development of partnerships with volunteer organizations that leverage 
the agencies' ability to perform critical work. These efforts should 
continue and more should be established.
    NOLS works closely with numerous Districts within 23 different 
National Forests in the mountain west. In many cases, we have partnered 
with the agency to perform volunteer service projects that give our 
students hands-on experience with the challenges of land management and 
help the agency complete maintenance work in the backcountry. We are 
concerned that projects that are currently possible with the use of fee 
demonstration revenue--projects that leverage both money and 
volunteers--will fall by the wayside under a new permanent program that 
does not address backcountry areas. We encourage the Congress to 
consider carefully the impact of a new fee system on existing programs 
currently funded with fee demonstration revenue. Perhaps through the 
development of Memorandums of Understanding or programs such as 
Challenge Cost Share, agencies can maintain the momentum they have 
gained with existing partnership programs.
            Volunteer Support and Management
    A number of organizations, including NOLS, have actively followed 
the evolution of the fee demonstration program and have requested that 
the agencies increase their level of involvement with volunteer groups. 
As described above, NOLS has witnessed on many occasions that 
partnerships between agencies and non-governmental organizations can 
bring enormous benefits to public land and to the people who visit it. 
We strongly encourage the Congress to develop provisions in a permanent 
program that enhance the agencies' ability to partner with volunteers, 
not only for the collection of fees, but also for the performance of 
work projects.
    NOLS appreciates the level of effort and analysis that the Congress 
and the agencies continue to give to the recreation fee program. In 
addition, we appreciate the opportunity to provide our opinion on 
recreation fees and on a possible permanent program. We are always 
available for additional information and input.

                                    

      

</pre></body></html>
